<html>
<title> - COMBATING TERRORISM: ASSESSING THE THREAT OF A BIOLOGICAL WEAPONS ATTACK</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
   COMBATING TERRORISM: ASSESSING THE THREAT OF A BIOLOGICAL WEAPONS 
                                 ATTACK
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 12, 2001

                               __________

                           Serial No. 107-103

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform








                       U. S. GOVERNMENT PRINTING OFFICE
81-782                          WASHINGTON : 2002
__________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Nicholas Palarino, Senior Policy Advisor
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel





                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 12, 2001.................................     1
Statement of:
    Decker, Raymond, Director, Defense Capabilities Management 
      Team, U.S. General Accounting Office; Ken Alibek, 
      president, Advanced Biosystems, Inc.; John Parachini, 
      policy analyst, Rand Corp.; and Jerrold Post, M.D., 
      professor of psychiatry, political psychology and 
      international affairs, George Washington University........     4
Letters, statements, etc., submitted for the record by:
    Alibek, Ken, president, Advanced Biosystems, Inc., prepared 
      statement of...............................................    21
    Allen, Hon. Thomas H., a Representative in Congress from the 
      State of Maine, prepared statement of......................    58
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    66
    Decker, Raymond, Director, Defense Capabilities Management 
      Team, U.S. General Accounting Office, prepared statement of     7
    Parachini, John, policy analyst, Rand Corp., prepared 
      statement of...............................................    27
    Post, Jerrold, M.D., professor of psychiatry, political 
      psychology and international affairs, George Washington 
      University, prepared statement of..........................    43


   COMBATING TERRORISM: ASSESSING THE THREAT OF A BIOLOGICAL WEAPONS 
                                 ATTACK

                              ----------                              


                        FRIDAY, OCTOBER 12, 2001

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Putnam, Gilman, Platts, 
Allen, Schakowsky, and Clay.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; R. Nicholas Palarino, senior policy advisor; Thomas 
Costa, professional staff member; Jason M. Chung, clerk; David 
Rapallo, minority counsel; and Earley Green, minority assistant 
clerk.
    Mr. Shays. I would like to call this hearing to order and 
welcome our panel and our guests. Before September 11, 
assessing the threat of biological terrorism was disdained by 
some as little more than an academic or a bureaucratic 
exercise. Today, as we worry about access to crop dusters and 
suspicious anthrax exposures in Florida, a clear-eyed, a fully 
informed view of the threat imposed by weaponized pathogens is 
a national security imperative. But we still have no 
comprehensive threat assessment and achieving that essential 
perspective remains a challenge. Assessing the threat of 
bioterrorism requires a sober judgment about the motivations, 
intentions and capabilities of people so intoxicated with hate 
and evil, they would kill themselves in the act of killing 
others.
    The questions that confound the assessment process, when 
and where will terrorists use biological weapons against us, 
how will the agent be disbursed, for what type and magnitude of 
attack should we be prepared. Available answers offer little 
comfort and less certainty in assessing the threat. Some 
conclude the technical difficulties of large scale production 
and efficient dissemination reduce the likelihood terrorists 
will use lethal agents to inflict mass casualties anytime soon. 
Others think those barriers have been or will soon be overcome. 
Still others believe that neither large quantities nor wide 
dispersions are required to inflict biological terror.
    From this cacophony of plausible opinions, those charged 
with formulating a national counterterrorism strategy must 
glean a rational estimate about the irrational possibility of 
biological attack. Perhaps the most difficult dimension of the 
threat to assess is the deep-seated, almost primal fear 
engendered by the prospect of maliciously induced disease.
    For the terrorists, that fear is a potent force multiplier 
capable of magnifying a minor manageable outbreak into a major 
public crisis. Failure to account for this unique aspect of 
biological terrorism understates the threat, increasing our 
vulnerability. Overstating the threat based on fear alone 
invites overreaction in which we waste scarce resources and 
terrorize ourselves with Draconian security restrictions. If 
you live in a flood plane, you plan for the 10-year or even 20-
year flood. You don't expect every flood to reach the 100-year 
level. If the least likely but worst case scenario dominates 
your planning, you would spend every day sitting on the roof in 
a raincoat waiting for the catastrophic deluge.
    Instead, accepting some risk, you would prudently assess 
the likelihood of storm surge, buy an extra case of water and 
some flashlights and go on about your life. After September 11, 
we all live in a bio-terrorism flood plain and we should plan 
accordingly. A workable assessment of the biological threat 
demands an open discussion of risks, vulnerabilities and fears. 
It is that discussion we continue today. It is the discussion 
we will have again October 23, when Health and Human Services 
Secretary Tommy Thompson and others will appear before the 
subcommittee to discuss the role of vaccines in our near term 
and long-term preparedness against biological attack.
    We truly welcome our witnesses and thank them for sharing 
their time, their expertise and their opinions with us today. 
At this time, I think we will recognize our senior and most 
experienced member, the gentleman from New York. You have the 
floor.
    Mr. Gilman. Thank you very much, Mr. Chairman. And I want 
to thank you for holding today's hearing to examine the overall 
threat posed by biological terrorism and the steps needed to be 
taken by our government to establish an effective response to a 
biological weapons attack. But I want to commend you, too, for 
your continual efforts to try to prepare our government for all 
kinds of emergencies that we may be experiencing as a result of 
terrorism. Your recent meeting yesterday where we shared 
thoughts with some of our experts on anti-terrorism, an 
informal meeting, but a highly experienced group that was 
giving us some thoughts that we shared together; the 
fractionalization hearing on our Government's efforts spread 
through so many of our agencies; lack of threat assessment; the 
need for force protection; domestic preparedness; detection 
technology; hearings on anthrax, chemical warfare.
    You ought to be commended for this extremely intensive 
review of our government's programs to prepare our Nation 
better for these kinds of problems. And I don't think we can 
commend you enough for your continual efforts in this area. For 
many years, the possibility of a biological terrorist attack 
occurring in our Nation seemed absurd, something to be 
relegated to the realm of science fiction. Regrettably, the 
barbaric events of September 11th, have sharply focused our 
national attention on terrorism and have underscored our 
vulnerability to future attacks. Indeed, the bioterrorism 
debate has been transformed from a question of if to the 
seeming inevitably of when and how. The task of developing an 
overall strategy to successfully counteract any domestic act of 
biological terrorism has proven to be a difficult challenge for 
our Federal and State policymakers.
    Yet, there can be no doubt that there is now a sense of 
urgency for the resolution of this task that was not critical 
before this. Biological terrorism is now at the fore of our 
national agenda. There has been a great deal of debate in 
recent years about the nature of the biological terror, both in 
terms of where the threat originates, what specific agents pose 
the greatest danger. So far, the media has focused its 
attention on anthrax and smallpox, yet those represent merely 
two of the many agents which conceivably could be utilized by 
terrorists in any future attack. Since September 11th, we have 
been engaged in a war on terrorism. The President has told us 
it is going to be a long, protracted struggle which we all 
recognize; the very real potential of additional attacks on our 
own soil. The FBI just yesterday warned us of the possibility 
of an imminent attack.
    Given that, it is in our interest to place greater effort 
on identifying both the capability of those who are likely to 
use biological weapons against us as well as to be able to 
develop effective counterterrorism measures and responses to 
any future attack. I look forward, along with my colleagues, to 
the testimony that we are going to hear from our distinguished 
panel of witnesses, and I am certain that their experience and 
insight will prove helpful to us and to this committee as 
Congress works to find its role in this suddenly urgent and 
vexing issues.
    So once again, Mr. Chairman, thank you for your outstanding 
leadership on these important topics. And I hope you will 
continue in that vein. Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Mr. Chairman yourself. And I would 
say whatever compliments go to the staff. We have an excellent 
staff on this committee. At this time, I would recognize the 
vice-chairman of the committee, Adam Putnam and see if he has 
any statement.
    Mr. Putnam. Thank you, Mr. Chairman. I appreciate your 
continued leadership on this issue. As everyone in this room 
knows, this subcommittee has held more hearings on the threats 
from terrorism, including chemical and biological weapons, more 
than any other committee in the Congress, and we appreciate 
your continued leadership and look forward to the testimony 
from this panel.
    Mr. Shays. Thank the gentleman.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I would just echo the 
comments of my colleagues and our appreciation for your 
leadership in holding these very important hearings and to 
convey my sincere thanks to our witnesses here today, to share 
your expertise on a critically important issue and at a very 
relevant time in our Nation's struggles against threats from 
others. So thank you for being here.
    Mr. Shays. Before I recognize the witnesses, I just want to 
thank the members of this committee for being strong and active 
participants. Just recognizing our witnesses and then I will 
swear you all in and we will take your testimony. We have 
Raymond Decker, Director of Defense Capabilities Management 
Team, U.S. General Accounting Office. He is going to talk about 
threat and risk assessment and how it is done, more or less.
    We will have Ken Alibek, who is the former deputy head of 
the Soviet Union bioweapons program and an author of Biohazard 
and president of Advanced Biosystems, Inc. John Parachini, a 
policy analyst for RAND Corp., biological threat and terrorist 
groups. I think you will be addressing that issue and others.
    Gerald Post, professor of psychiatry, political psychology 
and international affairs, George Washington University, who 
will share with us the motivation of terrorists. And it is my 
understanding, Dr. Post, that you have probably interviewed 
more terrorists than most anyone else.
    We have an excellent panel. Just truly an excellent panel. 
I would like to invite you all to stand and swear you in. We 
swear in all our panelists.
    [Witnesses sworn.]
    Mr. Shays. Everyone has responded in the affirmative. Thank 
you very much and have a seat. I am going to ask unanimous 
consent that all members of the subcommittee be permitted to 
place an opening statement in the record and the record remain 
open for 3 days for that purpose. Without objection, so 
ordered. I ask further unanimous consent that all witnesses be 
permitted to include their written statement in the record. 
Without objection, so ordered.
    We are going to go in the order that I called you. And let 
me say on the outset that I am very appreciative of the fine 
work that the General Accounting Office does. And I am also 
grateful, Mr. Decker, that you don't say you need to have a 
separate panel and that you are willing to participate in a 
larger panel. Maybe that doesn't seem unusual to you, but some 
in the government like to have their own panel. So I want to 
put on the record, thank you. It makes it easier for us to have 
a dialog. So you're on, Mr. Decker.

 STATEMENTS OF RAYMOND DECKER, DIRECTOR, DEFENSE CAPABILITIES 
 MANAGEMENT TEAM, U.S. GENERAL ACCOUNTING OFFICE; KEN ALIBEK, 
 PRESIDENT, ADVANCED BIOSYSTEMS, INC.; JOHN PARACHINI, POLICY 
   ANALYST, RAND CORP.; AND JERROLD POST, M.D., PROFESSOR OF 
  PSYCHIATRY, POLITICAL PSYCHOLOGY AND INTERNATIONAL AFFAIRS, 
                  GEORGE WASHINGTON UNIVERSITY

    Mr. Decker. Chairman Shays and members of the subcommittee, 
I am pleased to be here this morning to discuss the issue of 
combating terrorism and an approach for managing the risk from 
terrorism directed at our homeland. Over the past several 
years, we have examined and reported on Federal efforts to 
combat terrorism to include weapons of mass destruction at the 
request of this committee and others. Our body of work includes 
over 60 products, based on information gleaned from a range of 
sources to include Federal, State and local governments, 
foreign governments and private entities. The events of last 
month and the long-term aspects of the national engagement to 
combat terrorism highlight the need for effective near and 
long-term actions at all levels of government as well as in the 
private sector.
    The designation of a focal point within the Executive 
Office of the President to lead the Office of Homeland Security 
is a positive step. As Governor Ridge begins to craft a 
national strategy to effectively prepare the Nation from future 
attacks, we believe a risk management approach is essential to 
underpin decisions which identify requirements, set priorities, 
direct actions and allocate resources. A risk management is a 
balanced systematic and analytical process to evaluate the 
likelihood that a threat will endanger an asset and identify 
actions to reduce the risk and mitigate the consequences of an 
attack.
    We believe a good risk management approach should have 
three key elements, threat assessments, vulnerability 
assessments and criticality assessments. Allow me to briefly 
discuss each assessment. A threat assessment is an important 
process that identifies and evaluates threats using various 
factors such as capability, intention, past activity and 
potential lethality of attacks.
    At the national level, the Central Intelligence Agency and 
other agencies of the intelligence community are responsible 
for those assessments that involve international terrorist 
threats. The Federal Bureau of Investigation gathers 
information and assesses the threat posed by domestic sources 
of terrorism. In 1999, and again, in our most recent report on 
combating terrorism, which was released last month--and this is 
A22, we had recommended that the FBI prepare a formal 
intelligence assessment that assesses the chemical and 
biological agents that could be used by domestic terrorists 
without the assistance or support of a foreign entity. The FBI 
concurred and expects to complete the assessment in December of 
this year.
    Additionally, we recommended that the FBI produce a 
national level threat assessment using intelligence estimates 
and input from the intelligence community and others to form 
the basis for and to prioritize programs developed to combat 
terrorism to include weapons of mass destruction.
    Again, the FBI concurred and expects to complete this 
classified study later this month. Mr. Chairman, as you know, 
in April 2000, we released a report on how other countries, 
Canada, United Kingdom, France, Germany and Israel are 
organized to combat terrorism. And we noted that these five 
countries place great emphasis on threat assessments which 
address the likelihood of attack. Since they stress their 
primary objective is prevention, these assessments have a 
significant importance in their planning and a response 
depending events.
    However, I must caution that since all attacks may not be 
prevented, the following two assessments are essential in 
preparation. A vulnerability assessment identifies weaknesses 
in physical structures, security systems, plans, procedures and 
a variety of other areas that could be exploited by terrorists. 
For example, a common physical vulnerability might be the close 
proximity of a parking area near a building or structure with 
the obvious concern being a vehicle laden with explosives. 
Normally, a multi-disciplinary team of experts in engineering, 
security, information systems, health and other areas normally 
would conduct this vulnerability assessment. Teams within an 
organization can perform these assessments, which is the case 
used by the Department of Defense.
    In a 1998 report, GAO report, we noted that a major U.S. 
multinational firm used the same approach to better focus its 
efforts in overseas facilities. The final assessment is the 
criticality assessment, and these are designed to identify 
which assets are most important to an organization's mission or 
represent a significant target which merit enhanced protection.
    For example, nuclear power plants, key bridges, major 
computer networks might be identified as critical assets based 
on national security or economic importance. Some facilities 
might be critical at certain times and not at other times. For 
example, sports stadiums or a shopping center filled with 
people might represent a critical asset. Typically, the 
affected organization would perform its own criticality 
assessment. And we note that the report of the Interagency 
Commission on Crime and Security in the U.S. seaports issued 
late last year, stress the need for these assessments in 
conjunction with threat and vulnerability assessments.
    Mr. Chairman, simply stated, one must know as much as 
possible about threat, identify one's weaknesses to potential 
attack and determine which assets are most important and 
require special attention in order to make sound decisions on 
preparedness while leveraging limited resources. I have one 
caveat about threat assessments. Our national goal is to 
understand the threat and create assessments to guide our 
actions. To this end, there are continuous efforts by the 
intelligence and law enforcement communities to assess foreign 
and domestic threats to the Nation. However, even with these 
efforts, we may never have enough information on all threats. 
So there may be a tendency to use worst-case scenarios in this 
situation. Since worst-case scenarios focus on vulnerabilities 
and vulnerabilities are almost unlimited and would require 
exhaustive resources, we believe it is essential that a careful 
balance exist using all three assessment elements in preparing 
and protecting against threats.
    In summary, threat, vulnerability and criticality 
assessments, when completed and evaluated together in a risk 
management-based approach, will allow leaders and managers to 
make key decisions which will better prepare against potential 
terrorist attacks that may include weapons of mass destruction. 
If this risk management approach were adopted throughout the 
Federal Government and by other segments of society, we believe 
a more effective and efficient preparation in-depth against 
acts of terrorism directed at our homeland could be affected.
    Mr. Chairman, this concludes my statement and I will be 
pleased to respond to any questions that the committee may 
have.
    Mr. Shays. Thank you, Mr. Decker. It is a very helpful 
statement. And we will definitely have questions.
    [The prepared statement of Mr. Decker follows:]
    [GRAPHIC] [TIFF OMITTED] T1782.001
    
    [GRAPHIC] [TIFF OMITTED] T1782.002
    
    [GRAPHIC] [TIFF OMITTED] T1782.003
    
    [GRAPHIC] [TIFF OMITTED] T1782.004
    
    [GRAPHIC] [TIFF OMITTED] T1782.005
    
    [GRAPHIC] [TIFF OMITTED] T1782.006
    
    [GRAPHIC] [TIFF OMITTED] T1782.007
    
    [GRAPHIC] [TIFF OMITTED] T1782.008
    
    [GRAPHIC] [TIFF OMITTED] T1782.009
    
    [GRAPHIC] [TIFF OMITTED] T1782.010
    
    [GRAPHIC] [TIFF OMITTED] T1782.011
    
    Mr. Shays. Dr. Alibek.
    Mr. Alibek. Mr. Chairman and members of the subcommittee, 
thank very much for inviting me here. And I think my 26-year 
long experience in the field of biological weapons and 
biological weapons defense make me, I hope, at least, 
experience gives me some right to discuss this issue.
    Before I came to the United States in 1992, I was 
scientific leader of this program in the former Soviet Union. I 
was responsible for a large number of scientists and 
technicians involved in this program.
    Mr. Shays. The rumor is it was 30,000.
    Mr. Alibek. 30,000 people and about 40 facilities involved 
in research and development of biological weapons and research 
and development in defense against biological weapons. And we 
were on both sides to develop weapons and to develop defense. 
And now we know in this country, in the United States, we have 
a great deal of confusion when we discuss biological weapons 
and biological weapon threat. Some experts discuss and say 
biological weapons present very significant threat.
    Some people say no, it is not a threat whatsoever. In my 
opinion, makes us as disarmed and we don't pay much attention 
to necessity to the structure of biological weapons defense. 
The problem is this: We discuss in many cases--we discuss 
anthrax. We discuss smallpox. We discuss some ways to analyze 
biological weapons and whether or not it is difficult. But the 
problem is this: This issue is much wider and bigger because 
when we discuss biological weapons, what we need to keep in 
mind are several dozen biological agents could be used in 
biological weapons.
    There are many deployment techniques. And these techniques 
are not just aerosol deployment. There are many others. It is 
not a situation where someone has to develop a very 
sophisticated device to deploy biological weapons. These 
techniques could be, I would say, used with very primitive 
devices. And, you know, many such things, in my opinion, make 
biological weapons very dangerous, and very effective weapons 
could be used.
    And some people ask why biological weapons? What is the 
difference between biological weapons, nuclear weapons or 
regular conventional weapons? In my opinion, biological weapons 
have a very significant attractiveness because of many reasons. 
As I said before, a number of different agents could be used; 
many, many different techniques. And the great diversity of 
biological weapons make them effective weapons. And what is 
important to keep in mind, biological weapons impose infectious 
diseases, and each biological weapon could result in absolutely 
different consequences. I provided, with some examples, for 
example, smallpox, anthrax, plague and Marburg infections. And 
what I would like to say it's just a small number of examples, 
but if you analyze all these agents and weapons, you could see 
how diversified these weapons are.
    And unfortunately, our understanding of biological weapons 
is not, I would say, comprehensive enough. What we need to do 
now, we need to rectify our understanding and knowledge of 
biological weapons. As soon as we start understanding what is a 
real threat to biological weapons, we start understanding what 
kind of defense we need to develop. The problem is this: If we 
still consider existing approaches in developing defense 
against biological weapons are perfect approaches, or plausible 
approaches, in my opinion, we make significant mistake. What I 
notice when we discuss this issue--when I read many testimonies 
or articles, we discuss antibiotics. We discuss vaccines. I 
have nothing against antibiotics.
    In many cases, they could protect against bacterial 
biological weapons. But when we discuss vaccines, there is a 
very important situation why we discuss vaccines. We discuss 
vaccines as a possible protection for troops or in some other 
scenarios. Vaccines are not good protection against--in the 
case of bioterrorism. And you know, when we discuss and assess 
to spend much money to develop vaccines, it causes a 
significant question. Why? Vaccine needs to be introduced well 
in advance first. You are not capable to vaccinate entire 
population. You have no idea against what agent you need to 
vaccinate people and so on and so forth. And there is another 
issue. Many vaccines have not developed yet.
    But we continue pushing this vaccine issue at the same 
time, you know, in my opinion, it shifts us toward wrong 
direction. What we need to keep in mind in the medical defense, 
there are three major areas: Prophylactics or prophylaxes we 
call it, urgent prophylactics and treatment. And, you know, 
when we spend our major resources to develop vaccines, we don't 
spend much time or resources to develop treatment and to 
develop urgent prophylaxes. In my opinion, it is a significant 
mistake that needs to be corrected. There is another issue--it 
is just one of the part of biological weapons.
    Mr. Shays. Say that last point over again--the last point.
    Mr. Alibek. In my opinion, when we discuss a necessity to 
develop new vaccines, to spend hundreds of millions of dollars 
to develop new vaccines, we are making a very significant 
mistake because vaccines are not a good protection in 
bioterrorism. Now we have got many agencies, many departments 
involved in this business. We know that these agencies and 
these departments have many subcontractors working in this 
field. But you know when we try to understand what is the scope 
of the problem and what the scope of the work, for example, 
their agencies and departments do, in my opinion, it wouldn't 
be possible just to create more or less comprehensive and 
truthful picture. In my opinion, the problem is this: We still 
suffer lack of coordination between these agencies. And do you 
know if we don't realize there is time just to develop a 
completely new system, we should include, in my opinion, a 
necessity to establish a new agency, agency which would be 
responsible completely just to work in the field of biodefense. 
And this agency would have responsibility and would have 
overall authority and would be able just to manage and revise 
what is being done by any agency, by any department in the 
United States.
    In this case, this agency would be able to establish a 
system, I would say, highly centralized system to develop 
protection against biological weapons. The problem is this. We 
live in democratic country, but when we talk about national 
security issues or when
you talk about bioterrorism and possible huge number of 
casualties, there is no democracy here. It must be highly 
centralized and very effective system. Thank you.
    Mr. Shays. Thank you, Dr. Alibek.
    [The prepared statement of Mr. Alibek follows:]
    [GRAPHIC] [TIFF OMITTED] T1782.012
    
    [GRAPHIC] [TIFF OMITTED] T1782.013
    
    [GRAPHIC] [TIFF OMITTED] T1782.014
    
    [GRAPHIC] [TIFF OMITTED] T1782.015
    
    Mr. Shays. We will now go to Mr. Parachini.
    Mr. Parachini. Thank you, Mr. Chairman and members of the 
committee for the privilege and opportunity to testify here. 
Since the tragic events of September 11th, many Americans have 
become concerned about the prospect of biological terrorism. 
After all, it seems plausible that hijackers willing to kill 
themselves, those aboard commercial airliners and thousands 
more in the World Trade Center and Pentagon might be willing to 
use biological agents to kill indiscriminately. Yet it is 
important to maintain some perspective of the relative dangers. 
20th century history of warfare, terrorism and crime involving 
biological agents is much less deadly than that of the history 
with conventional explosives.
    While history is not a perfect guide to the future, it does 
provide a context for our thinking about the future. We need to 
take account of history and hedge against the seeming 
imponderables of the future. When it comes to the feasibility 
of using biological weapons, States are more likely to have the 
resources, technical capabilities, organizational capacity to 
assemble the people, know-how, material and equipment to 
produce such weapons and to be able to clandestinely deliver 
them to valued targets. Mustering the resources and 
capabilities to inflict devastating strikes with biological 
agents has proved to be formidable tasks even for States.
    While some terrorist groups may attempt large scale 
biological attempts, perpetrating an attack on a scale as that 
of September 11th is not likely. At the moment, only States are 
able to perpetrate clandestinely biological attacks and they 
are extremely reluctant to do so. Limited attacks using 
biological agents as common as salmonella and as rare as 
anthrax are possible. But the scope and scale of such attacks 
will be modest.
    On balance, then, a State's ability to command resources 
and organize them for certain priorities scientific and 
industrial objectives presents the potential for the greatest 
threat in bioterrorism. What is more likely than a conscious 
decision by a country's command authority is that an 
unauthorized faction within a State might take it upon itself 
to use a subnational group to do its dirty group. The alleged 
involvement of the Iranian Government's security services in 
the attack on American military personnel in Khobart Towers 
seems to be an example of this type of involvement.
    When it comes to the feasibility of biological terrorism 
perpetrated by subnational groups and individuals, the range of 
capability and the level of consequence depends on whether the 
groups or individuals are State-sponsored or not. High 
consequence biological attacks would probably require the 
assistance of a State sponsor or some other source of 
considerable resources. Money, arms, logistical support 
training, even training on how to operate in a chemically 
contaminated environment, are all forms of assistance States 
have provided to terrorists. But historically, they have not 
crossed the threshold and provided biological weapons material 
to insurgency groups or terrorist organizations.
    Natural question at this time is whether an organization 
such as al Qaeda with the financial support of Osama bin Laden 
might be able to amass the resources for a significant 
biological attack. Think as we consider this possibility, we 
need to not only look at the opportunities, but the 
disincentives. Too often we envision what we fear and do not 
take into account the thinking of somebody else. We think they 
are thinking like we fear as opposed to how they are thinking. 
And I think the most important thing I would draw your 
attention to is that terrorists have readily turned to more 
available alternatives, explosives.
    And indeed, on September 11th, they took an ordinary means 
of modern transportation and turned it into an extraordinary 
killing device. The only two cases we have where terrorists 
have used biological weapons, one in 1984, where it was a 
religious cult group, the Rajneeshee, and another 11 years 
later by the Aum Shinrikyo. Neither of these inflicted the 
level of casualties that are regularly the product of 
conventional explosives. Both of these cases had unusual 
aspects to them and unusual aspects about their leadership. 
They were obsessed with poisoning. There were limits on what 
these groups could do. It is very different than that which can 
be perpetrated by a State.
    Let me conclude by saying that the possibility is remote of 
a mass scale biological weapons attack. Small scale attacks, 
biocrimes, like we may see in Florida, are possible. The 
government has the responsibility to do all that it can to 
prevent, protect and respond to events that seem unlikely. The 
challenge is to determine how much to prepare for a low 
probability, albeit potentially catastrophic attack, while at 
the same time guarding against not focusing enough on more 
probable events with significant but not necessarily 
catastrophic consequences.
    With that, Mr. Chairman, let me conclude. And I will be 
glad to answer any questions you or the members of the 
committee have.
    Mr. Shays. Thank you very much for your testimony and we 
will have a number of questions.
    [The prepared statement of Mr. Parachini follows:]
    [GRAPHIC] [TIFF OMITTED] T1782.016
    
    [GRAPHIC] [TIFF OMITTED] T1782.017
    
    [GRAPHIC] [TIFF OMITTED] T1782.018
    
    [GRAPHIC] [TIFF OMITTED] T1782.019
    
    [GRAPHIC] [TIFF OMITTED] T1782.020
    
    [GRAPHIC] [TIFF OMITTED] T1782.021
    
    [GRAPHIC] [TIFF OMITTED] T1782.022
    
    [GRAPHIC] [TIFF OMITTED] T1782.023
    
    [GRAPHIC] [TIFF OMITTED] T1782.024
    
    [GRAPHIC] [TIFF OMITTED] T1782.025
    
    [GRAPHIC] [TIFF OMITTED] T1782.026
    
    [GRAPHIC] [TIFF OMITTED] T1782.027
    
    [GRAPHIC] [TIFF OMITTED] T1782.028
    
    Mr. Shays. Dr. Post, you can end this panel and then we 
will start with the questions.
    Dr. Post. Mr. Chairman, members of the committee, I am 
honored to have the opportunity of addressing you on this 
important topic. A great deal of attention has been paid to the 
vulnerability of American society and what terrorists could do. 
I will be confining my remarks to what terrorists would do and 
wouldn't do, what their motivations and incentives are and what 
their constraints are for committing acts of the chem-
bioterrorism. First, a note of vocabulary. There is a term 
often in use and I hope that this committee can play a role in 
killing this term and that is, weapons of mass destruction 
terrorism. It is an unfortunate term that is all too readily 
used. Certainly on September 11th, we saw mass destruction 
terrorism, indeed catastrophic super terrorism perpetrated in 
the guise of conventional terrorism.
    Similarly, the so-called weapons of mass destruction, chem-
bio, radiological, nuclear, in fact, can be used with exquisite 
precision to the point of being able to kill a single 
individual in an assassination. Let me first take the committee 
rather swiftly through the spectrum of terrorism. I am going to 
attempt to both differentiate the threat by group and by attack 
type. And these remarks are elaborated in my prepared 
statement. You will see----
    Mr. Shays. Now we have one in front of the table--you can't 
see it, but if we are looking down, don't think we are not 
paying attention.
    Dr. Post. First, across the top and differentiating, this 
is really quite variegated spectrum of terrorist groups. We 
have crusaders, criminals and crazies. Let me emphasize as a 
psychiatrist who has been working and understanding terrorist 
psychology, terrorists are not crazed psychotics despite the 
often misinterpretation of the public. In fact, terrorist 
groups expel emotionally disturbed members from their groups. 
They are a security risk. At the middle tier, I note in 
particular State-supported terrorism. As Mr. Parachini stated a 
moment ago, this is of grave concern for the reasons he 
indicated, in terms of the resources necessary, and I will come 
back to that in a moment. I will be focusing on the motivations 
and constraints for the sub State groups.
    First, across the left, we have social revolutionary 
terrorism. This is the groups who were particularly prominent 
during the 70's and 80's, red brigades, Red Army faction in 
this country, the Weather Underground following Marxist, 
Leninist doctrine. Still present, though, we have Japanese Red 
Army, a number Colombian social revolutionary groups as well. 
Right wing terrorism on the rise. In fact, a number of the 
small attacks of chemical biological terrorism have come from 
individual extremists within the right wing fringe. Nationalist 
separatist terrorism refers to the groups seeking to have an 
independent nation, be it the provisional Irish Republican Army 
in Northern Ireland who have heard about the troubles from 
their fathers and grandfathers in the publics of northern 
Ireland or the radical Palestinian terrorists hearing of the 
lands taken from their families in the coffee houses of Beirut 
in the occupied territories.
    Of particular concern is the group that I have labeled 
religious extremist terrorism, both including new religions 
such as Aum Shinrikyo, which gave us the event which 
precipitated in many ways the major concern with this, the 
sarin gas attack in the Tokyo subways and religious extreme and 
religious fundamentalist terrorism. And of particular concern 
now, of course, Islamist radical extremist terrorism.
    Now if we could have the second graphic, please. What I 
would like to do now is walk you swiftly through this graphic. 
Down the left I have the groups I have just mentioned. Across 
the top, I have noted different types of attack. From my point 
of view, the major psychological thresholds across is not the 
weapon type, but the willingness to create mass casualties as 
was tragically demonstrated on September 11th. In fact, to echo 
Mr. Parachini, one could cause mass casualties with 
conventional weapons as has been done on a number of occasions 
going back to the Embassy bombings in Kenya and Tanzania.
    Mr. Shays. Just announcing that we are going into session 
at 11 a.m., you know, I say that but I am not necessarily 
right. I am still confused by this. Am I right guys, are we 
going into session at 11 a.m., or is that a vote? We'll figure 
it out later.
    Dr. Post. I have also noted CBW hoax. I emphasize this 
because this is insufficiently considered. One can have a very 
powerful--successful terrorist act without ever spreading a 
molecule of substance about--and we have insufficiently 
considered our preparation for this. And finally, small scale 
attacks, large scale attacks and then the catastrophic attacks 
of which Mr. Parachini spoke. Now for the first two types, 
social revolutionary and national separatist groups, they are 
interested in influencing the west calling attention to their 
cause. It would be quite counterproductive for them to have 
either a mass casualty attack or an attack which damaged their 
constituents.
    It is possible but remote that they would choose to have a 
small scale attack that doesn't affect their constituents. Thus 
a Palestinian group might attack in Tel Aviv, but not in 
Jerusalem. For the right wing groups, we see some groups who 
have indeed participated lacking though, in fact, the resource 
and technology. Let me focus on the last two groups, the 
religious fundamentalist groups and the new religion terrorist. 
Here, in my judgment, there is little psychological constraint 
as has been demonstrated. Indeed, there is a desire to cause 
extreme casualties. In fact, some of the terrorists I have 
interviewed are quite interesting in saying there is no moral 
red line in terms of the amount of destruction.
    However, here we have, again, an issue where the resources 
necessary to carry this out are simply not present for the 
group. And what would be a great hazard here would be if we had 
a State supporting these groups such as Iraq, which has been 
one of the areas of concern. In my judgment, we need to be 
focusing our intelligence resources in particular on the groups 
of greatest concern, which would be those groups responsible 
for more than 40 percent of the attacks in recent years where 
no responsibility has been claimed. They are not interested in 
influencing the west. They are interested in expelling the 
west. They don't need that New York Times headline, God knows.
    And this is the group of greatest concern. But even so, it 
is not of major concern, from my point of view, in my 
analytical judgment, in terms of catastrophic attacks. There is 
a possibility of focal attacks only. And we should not, in 
overreacting to this, neglect to focus on conventional 
terrorism because it is conventional terrorism that continues 
to be the source of mass casualties and continues to be the 
method of choice. Thank you, Mr. Chairman.
    [The prepared statement of Dr. Post follows:]
    [GRAPHIC] [TIFF OMITTED] T1782.029
    
    [GRAPHIC] [TIFF OMITTED] T1782.030
    
    [GRAPHIC] [TIFF OMITTED] T1782.031
    
    [GRAPHIC] [TIFF OMITTED] T1782.032
    
    [GRAPHIC] [TIFF OMITTED] T1782.033
    
    [GRAPHIC] [TIFF OMITTED] T1782.034
    
    [GRAPHIC] [TIFF OMITTED] T1782.035
    
    [GRAPHIC] [TIFF OMITTED] T1782.036
    
    [GRAPHIC] [TIFF OMITTED] T1782.037
    
    [GRAPHIC] [TIFF OMITTED] T1782.038
    
    [GRAPHIC] [TIFF OMITTED] T1782.039
    
    [GRAPHIC] [TIFF OMITTED] T1782.040
    
    Mr. Shays. My staff is a little disappointed with you, Dr. 
Post, because they were enjoying your testimony hoping you 
would read it. You were talking about religious fundamentalist 
terrorism and you say they were seeking to influence the west 
in the establishment. But in the past decades no 
responsibility's claimed for upwards of 40 percent of terrorist 
acts. We believe this is because of the increasing frequency of 
terrorist acts by radical religious extremist terrorists. 
They're not trying to influence the west, rather, the radical 
Islamic terrorists are trying to expel the secular modernizing 
west and they do not need their name identified in a New York 
Times headline or in a story on CNN. They are ``killing in the 
name of God,'' and don't need official notice. After all, God 
knows.
    Somehow my staff thought that was rather an ingenious 
statement. So it is on the record, OK, Larry. At this time, I 
will call on Mr. Putnam.
    Mr. Putnam. Thank you, Mr. Chairman, and I thank the panel 
for their outstanding opening remarks. My first question is for 
Dr. Alibek. You have related the history of the Castro regime's 
involvement in bioweapons development since the early 1980's, 
including a comment that you gave to the Miami Herald in 1999. 
As a Floridian, I am very concerned because Cuba has a hostile 
regime 90 miles off shore. What information do you have for us 
on the status of the Cuban regime's production of bioweapons?
    Mr. Alibek. I think of this question because in 1999, it 
was quite a confusing situation because when I gave that 
interview, the State Department issued information saying that 
they had no information about any Cuban offensive biological 
weapons problem. But at the same time, Defense Intelligence 
Agency included Cuba in a group of countries involved in 
biological weapons activity. But my personal opinion and my 
personal experience of this, we have some information about 
this Cuban activity. We knew Cuba was interested in biological 
weapons research and development work. We knew that there were 
several centers; one of them was located close to Havana 
involved in, I would say, in military biological technology. 
And what was most amazing to us, we consider Cuba is not a 
well-developed country. But at the same time, Cuba has a very 
perfectly developed system of engineering and is capable to 
develop genetic engineering agents. They've got the desire to 
develop genetically engineered biological weapons. In my 
opinion, I strongly believe, and I still believe, this country 
discovered this capability and what the size of this program 
and what the level of achievement, of course, it is up to our 
intelligence services.
    Mr. Putnam. In the course of your work in the Soviet Union 
and your contacts with some of the Soviet satellite States, was 
there ever any motivation to develop biological or chemical 
weapons for the purpose of destroying agricultural crops or 
agriterrorism as opposed to inflicting mass casualties?
    Mr. Alibek. You are certainly right when you ask this 
question because in the Soviet Union, for example, there was a 
huge program. And this program included several directions and 
one direction, for example, to develop biological weapons to 
infect and kill human beings, troops and civilian population. 
Another was the program by the minister of agriculture.
    Mr. Shays. Another problem or program?
    Mr. Alibek. Another program to develop anti-crop and anti-
livestock biological weapons. And there were several 
institutions involved in this business. And they developed, for 
example, biological weapons like rinderpest, African swine 
fever, foot in mouth disease, specifically intended to infect 
livestock. There was another part of this program to destroy 
crops, wheat, rye, rice and corn. Biological weapons program, 
they are huge programs and they include many different 
directions. And undoubt, agricultural weapons are usually a 
part of large biological weapons programs.
    Mr. Putnam. Is it safe to say that a number of the 
researchers who were working on those agricultural programs 
have now spread out through a number of other nations and 
regimes since the collapse of the Soviet Union?
    Mr. Alibek. Yes, you're right. Many of them are now 
overseas and work for some other countries.
    From my personal experience I know in the West, just in the 
West, we've got tens to hundreds of scientists with quite 
sophisticated biological weapons knowledge. How many of them 
now in the Middle East or some other countries, we have no 
idea. But there was some information that some of them left for 
Iran, for Iraq and for some other countries.
    Mr. Putnam. Dr. Post, I have a very brief amount of time 
remaining and so much to ask.
    From a psychological perspective is there a desire for a 
number of these regimes to focus on agricultural terrorism, 
attacking food safety scenarios, or are they more focused on 
the spectacle of an explosion and bodies in the streets and 
casualties and things of that sort?
    Dr. Post. One has to differentiate among both the regimes 
and the groups. For groups seeking to strike out and damage us, 
there certainly could be a motivation to strike out in the 
agricultural area. For groups seeking that terrorist 
spectacular, to have attention and notice paid to them, that 
would be much less likely just because of the nature of the 
manner in which the threat has persisted. This is certainly an 
area of significant concern from my point of view which has yet 
not been sufficiently addressed.
    Mr. Putnam. Thank you, Mr. Chairman.
    Mr. Shays. Thank the gentleman.
    Mr. Allen, do you have a question?
    I'm sorry. I would like to acknowledge that Mr. Allen is 
here and Ms. Schakowsky and Mr. Clay.
    Mr. Allen. Thank you, Mr. Chairman; and thank you all for 
being here today.
    I was struck by some of the differences I detected in Mr. 
Decker's testimony and Dr. Alibek's, so I would like to sort of 
push it back to you. I thought I heard Mr. Decker saying--I 
hope I heard Mr. Decker saying--that we need to go through a 
risk management process. We need to evaluate all the different 
threats out there. I thought the outline that you raised was a 
good one to look at a threat assessment, a vulnerability 
assessment and a criticality assessment.
    That's not what we've been doing in this country, and I 
can't help but think that the whole debate over missile defense 
would continue to be very different--if we actually looked at 
the threat of an ICBM being fired at this country in the 
context of all the different threats we face from states and 
from terrorist groups, we would approach it differently. And if 
it didn't feel so much like a crusade on the part of the 
advocates, those of us who are skeptics might have reacted a 
little differently.
    I thought I heard Dr. Alibek saying there really are 
thousands of different biological agents out there that could 
be used.
    The question that I'm interested in is how is it possible 
for us as a government and as a country, two different things, 
to start to do real risk management and bringing it to bear in 
this debate?
    Here's what I'm thinking: I think the GAO 2 years ago 
recommended that a threat and risk assessment be developed by 
the FBI. The FBI said we would do it. I don't know if it's 
being done. I would like Mr. Decker to respond to that, the 
status of the recommendations and so on.
    But my overall question for any of you is, should we be 
asking different agencies like the FBI or the CIA or the 
Department of Defense to do separate threat and risk 
assessments and then try to get those separate assessments, 
kind of evaluate them, or do we want these different agencies 
to set up a structure that will allow them to do the threat and 
risk assessments together?
    Because I think we are in trouble if we just let the media 
take whatever threat is out there, whether it's anthrax 1 day 
or some other biological agent another day or whatever, if we 
keep moving from crisis to crisis based on the latest story, we 
will not be doing our job well. That's a bit rambling. But what 
I'm looking for is some advice on the approach we could take to 
get to a more disciplined analysis of the threats and 
vulnerabilities that are out there.
    Maybe, Mr. Decker, you should begin. I have taken too much 
time. I apologize.
    [The prepared statement of Hon. Thomas H. Allen follows:]
    [GRAPHIC] [TIFF OMITTED] T1782.041
    
    [GRAPHIC] [TIFF OMITTED] T1782.042
    
    Mr. Decker. Sir, let me start with one piece of this. In 
kind of looking at what Governor Ridge has to do, he's leading 
an Office on Homeland Security. We're not sure what that 
homeland security truly means. But if you read the Executive 
order, clearly it's to combat acts of terrorism. That's pretty 
clear.
    One aspect of working on a national strategy has to be an 
understanding of the threat. Understanding the threat and 
threat assessments are two slightly different issues.
    One, the understanding of threat is something that is 
continuous, it's long term, it has hooks into the past, just 
like Mr. Parachini mentioned, that allows you then to do a 
threat assessment which I would make the analogy is more like a 
snapshot in time. It gives you an appreciation for a lot of 
different factors that can be used in a quantifiable way to 
make certain decisions.
    Now, the issue that I would raise, sir, is there are 
agencies, organizations that are better prepared and better 
structured and based on their mission to do threat assessments. 
I do think that the threat assessments, that process in the 
intelligence community and to a lesser degree with the law 
enforcement community, there is a difference in approach and 
model.
    But with the intelligence community they probably do good 
assessments at the national level, looking at specific issues, 
long-term issues, and these are typically call national 
intelligence estimates. These estimates, these assessments 
provide a road map, if you will, on understanding an issue that 
I would submit other experts should use when you do risk 
management.
    Risk management basically is a discussion. It's a 
conversation with people of different disciplines, different 
backgrounds, different perspectives, that are experts in an 
area to be able to make sense out of what the threat 
implication is to our assets. And to make sense out of that, 
you have to know a lot about yourself. What's vulnerable and 
has most important?
    So, at the national level, you could have a threat 
assessment and a real good one of everything that you know to 
date and then you have to put that into context. How would it 
affect my vulnerabilities? How does it exploit my weakness? 
What is most important that I have to protect and at what 
degree? And that's where leadership comes in to make those hard 
decisions. What is an acceptable level of risk once I consider 
all these factors?
    Mr. Allen. So you're talking about sorting out the large 
number of risks that Dr. Alibek was referring to, for example?
    Mr. Decker. Yes.
    Mr. Alibek. If I may, I'm not against a necessity that you 
do risk assessment.
    I am not against a necessity to do a risk assessment. But, 
you know, I feel always a sort of resistance, reluctance when 
we discuss a necessity to develop a sort of priority, what is 
more likely and what is less likely and so on and so forth.
    Let me give you a couple of examples. In the early 1980's, 
before I came to the United States, there was a work--I would 
call it risk assessment work in the field of biological 
weapons. This work was done by some intelligence services here 
in the United States, and the recommendations was sent to the 
Department of Defense. And, you know, according to that 
assessment, the most threat in biological weapons in the future 
would be bacterial biological weapons and toxin biological 
weapons.
    Resulting from this assessment, the entire division of the 
Institute of Medical Defense, medical research, was eliminated, 
division which was responsible for protection against 
biological weapons in 1980's. And for 10 years it didn't exist.
    After some people came from the East and said, OK, guys 
let's analyze what we are having here in this field, what was 
the result? Yes, biological weapons would--the most effective 
biological weapons would be bacterial and viral biological 
weapons. Toxins in terms of military deployment wouldn't be 
very effective. It was the result of many years study done in 
the Soviet Union and, unfortunately, in some other countries.
    In this case, you can imagine this type of approach led to 
the entire destruction of the entire division and entire 
direction in biological weapons defense. If we use this 
approach, in my opinion, we--again, we're going to make the 
same mistake we already made before in our history.
    Mr. Shays. Could I just jump in, if the gentleman would 
yield, even though his time has run out, I would like them all 
to go through and answer your question. But I would just 
intuitively respond that maybe the assessment wasn't done 
properly. And I would also say that it would strike me that you 
have to update your assessment every year. So that if you had 
updated your assessment every year, you might not have found 
the result that you ended up with.
    Mr. Alibek. Of course, the problem is this: My position 
when we discuss biological threat and bioterrorism, you know, I 
am saying, that's right. There are many different agents would 
be used. There are many techniques could be used. But it's not 
a situation in which we are not able to do a comprehensive 
analysis and to develop a new understanding, contemporary 
modern understanding of biological weapon threat. It's not 
something impossible. We can do this. It's only a problem in 
this case to find right professionals to do this assessment.
    Mr. Shays. Mr. Parachini and Mr. Post, you both want to 
respond to his question? Then I will go to Ms. Schakowsky.
    Mr. Parachini. I was struck in Mr. Decker's response by his 
emphasis as an important part of the threat assessment being 
intentions. And to underline your comments, Mr. Allen, you 
spoke about some of the skepticism.
    Let's go back to the cold war. We tended in retrospect to 
overevaluate the threat from the Soviet Union because we were 
paying too much attention to capability and insufficient 
attention to intention. In dealing with closed societies and 
closed groups and organizations such as al Qaeda, we are 
significantly impaired from making intelligence estimates of 
intention and therefore tend to go to the worst-case scenario. 
This really emphasizes how crucial it is to be able to get into 
the heads of our adversaries more effectively than we have been 
at the present time.
    Mr. Shays. The challenge with that, though, is intentions 
can change from moment to moment but capability may be a little 
more long term. So we could--it would strike me we could think 
we know their intention but their intention could change 
overnight.
    Dr. Post. I don't see it quite that way, that intentions 
change from moment to moment. There is a linear track.
    Now, having said that, certainly Osama bin Laden is a 
remarkably innovative leader. He has spoken in almost taunting 
fashion about his willingness to use such weapons, which in 
itself is often terrifying.
    Mr. Allen. The only thing I would add to that in response 
is that when you're trying--it's different, I think, trying to 
gauge the intention of a terrorist group, which has a pretty 
clearly stated mission in this case, as compared to a state, a 
country which isn't going to move anywhere. And part of the 
debate about missile defense and the question of intentions is 
the fact that missiles that are launched can be traced right 
back to the site from which they were launched. But I don't 
mean to drag that whole debate into this one.
    Dr. Post. Just to elaborate on your point, though, the goal 
of no state is to terrorize. They will use terrorism to support 
their foreign policy goals, but when it becomes 
counterproductive for the state they are deterred just by the 
factors you illuminate.
    When you have a group whose primary goal is in fact to 
create terror in the service of coercion--and I think it should 
be remembered terrorism is at heart psychological warfare. It's 
violence as communication. It's designed to accomplish goals 
through creating terror, not through proliferation of bodies.
    Mr. Shays. Ms. Schakowsky, you have been very patient. 
Thank you very much. You have the floor.
    Ms. Schakowsky. Thank you, Mr. Chairman; and thank you for 
continuing what you started well before September 11th in 
looking into these matters.
    In that regard, I want to credit Representative Tierney for 
some questions that he asked and wanted to ask today that--he 
is not here right now. On June 5th and July 11th, this 
subcommittee held hearings on the biological weapons 
convention; and this international treaty, which was signed in 
1972, has 143 signatories prohibiting states from developing 
biological agents for offensive purposes. The problem that was 
acknowledged was that this treaty contains no inspection 
provisions and relies on international political pressure to 
ensure that there is compliance. And, as you stated in your 
recommendations, Dr. Alibek, that for many years the Soviet 
Union was able to hide an enormous biological weapons program. 
So, clearly, inspections is an issue.
    The last administration developed a protocol that would 
establish an inspection regime; and the current administration 
has, for unknown reasons, ``concluded that the current version 
of the protocol would be inefficient in stopping cheating.''
    At the July 10th hearing Mr. Tierney asked the 
administration witness, Ambassador Mahley, if he had prepared 
an analysis of the objections to this draft protocol which 
would require inspections. He said he had. He said that he 
would provide it. There was a motion that was adopted in the 
subcommittee, and then there was a request in writing.
    Three months have passed, and so Mr. Tierney has asked that 
the subcommittee take active measures, Mr. Chairman, to obtain 
that report by Ambassador Mahley that was promised months ago. 
While we understand that these are very busy times for the 
administration, but it seems to me that just delivering a 
report that was already done is a reasonable request. So I want 
to----
    Mr. Shays. Would the gentlelady yield? It's an absolutely 
reasonable request. We have requested it, and we'll go back and 
ask that it be provided.
    Ms. Schakowsky. Thank you, Mr. Chairman, on behalf of Mr. 
Tierney and myself as well.
    I wanted to then ask the panel if it is your belief, 
considering we've been talking about how you develop threat 
assessment, the relationship of state programs and terrorist 
programs developing biological weapons, whether or not this 
protocol requiring inspection would give us, in fact, another 
level of protection and if it's possible in your view to 
implement such a protocol effectively. Anyone who wishes to 
respond.
    Mr. Parachini. I think part of the question is whether the 
protocol helps or hurts. And the intention is clearly to help, 
but it in itself will not be sufficient. I think part of the 
problem of arms control in the post cold war period is that our 
expectations have been very high. Yet it has been very 
difficult to pinpoint in a multilateral context the security 
problems that we face with an arms control tool. So the arms 
control tool will be useful but not sufficient.
    My understanding of what Ambassador Mahley has said was 
that the administration wants to think about this in a much 
broader way and not be locked into just seeing the BWC as the 
way to address the problem, that there is a whole range of 
other tools such as regulating more effectively commerce and 
infectious diseases. We have some regulations in the United 
States, but on an international basis it's an open market. 
Pathogens are traded around the world without any of the normal 
controls.
    Disease surveillance, something that the committee I know 
has looked at several times, we're getting a little better at 
it here in the United States. But we're in a global 
environment. Global surveillance in other parts of the world 
where emerging infectious diseases are appearing is not near at 
the level ours is, and most public health officials in the 
United States say ours is not adequate. So these are very 
different tools other than arms control to address this 
problem.
    Ms. Schakowsky. Is there a counterproposal to the protocol?
    Mr. Parachini. That is part of the challenge that the 
administration is on the hook for, to provide that. These are 
not easy solutions, and it's not easy to come up with a package 
of new things. This is a totally new environment, and I commend 
the administration for trying to do some new thinking. Their 
challenge is to do it in a speedy fashion.
    Mr. Alibek. If I may, a small addition, in 1999, I was a 
part of this process called a three-lateral agreement between 
the United States, Great Britain and the Soviet Union to 
inspect or visit some biological weapons facilities--or 
suspected of being biological weapons facilities. Now I know 
one of the biggest problems was to prove whether or not one or 
another facility was actually--is it a BW facility or defense 
facility? It's one of the problems.
    But when we discuss a new protocol, I envision three major 
problems.
    First problem is this: Terrorist organizations, they don't 
sign any treaties. And for them, of course, it doesn't matter 
what kind of protocol we sign. It's not going to affect their 
activity.
    Second problem, we say, for example, one of the reasons a 
new administration----
    Ms. Schakowsky. To the extent they may use state-run 
facilities to advance their agenda.
    Mr. Alibek. Yes, that is right. But the problem is this 
when we discuss biological weapons--you know, my biggest 
concern is this. When people say biological weapons require 
many efforts, we wouldn't see any significant events. We use 
some examples cited, Aum Shinrikyo--I feel a very significant 
resistance because we use absolute incorrect examples.
    The problem is this. When we use example of Aum Shinrikyo, 
nobody pays attention. But Aum Shinrikyo was not capable to get 
a virulent strain. What they did, they used a non-virulent 
strain. That's why they were not able to get any casualties.
    When we discuss about likelihood of--small likelihood of 
create a significant terrorist attack, I completely disagree. I 
know the real power of biological weapons, and I know what kind 
of results we can get.
    But you know when we discuss this treaty, one of the 
biggest problems is this. For example, existing administration, 
current administration is saying we cannot put our 
pharmaceutical industry in danger because it will let some 
inspectors come and see our production facilities and it would 
cause some significant harm. It's incorrect.
    As a biotechnologist, if I come to a new facility or any 
facility and see some equipment, for example, to manufacture 
one or another product, it says absolutely nothing to me. What 
I need to know, I need to see specific documentation just to 
determine whether or not I am able to get some information to 
use in my own country.
    Mr. Shays. Could I interrupt the gentleman? You said such a 
strong statement that no one else has concurred with you. You 
said it provides you absolutely no information.
    Let me just make my point. I wouldn't suggest it tells you 
everything, but it tells you something. I have had more 
pharmaceutical people tell me that the shape of the pipes, 
where the pipes--where they connect and so on say a lot about 
the process that they use to develop the particular 
pharmaceutical drug.
    Mr. Alibek. That's not true. First of all, all of 
technology processes----
    Mr. Shays. May I ask you a question? Were you on both sides 
of this equation or on one side of the equation?
    Mr. Alibek. On both. Because the problem is this. By 
technological processes, production facilities, they have quite 
similar equipment. There are some differences in equipment 
design, some computer programming to program production 
facilities. You could see some equipment, for example, special 
equipment to purify one product. But, you know, the--a major 
know-how is inside of these columns, not outside.
    Mr. Shays. I just want to move on. I'm not disagreeing with 
you now. You said you've been on both sides and your statement 
will stand on the record.
    Mr. Alibek. If I may, one more thing. When we include in 
this protocol, a necessity to inspect, for example, suspected 
facilities, having four member team and 2-week notice, in my 
opinion is a mockery. Because for 2 weeks it's possible to hide 
any BW production.
    Mr. Shays. Could I just ask, is it possible to hide it in a 
day?
    Mr. Alibek. In small production could be hidden very easily 
within 1 to 2-week period.
    Mr. Shays. Thank you.
    Mr. Clay, you're on.
    Mr. Clay. Thank you, Mr. Chairman.
    Let me also thank the witnesses for being here to share 
with us their knowledge and experience.
    The purpose of the hearing is among the highest priority 
that we may have as a country. We have to examine the factors 
that should be considered in assessing the risk of biological 
terrorism. Just months ago the subject would have been as 
serious but would not have had the urgency and the knowledge 
that this has to be addressed and acted upon post haste. 
September 11, 2001, changed any perception that biological 
terrorism was only a possibility. It is now a probability and, 
depending on the results of the investigation ongoing in Boca 
Raton, FL, it may be a reality. However, we must not assume 
answers before the investigation is complete.
    The threat is real. It will remain real for the foreseeable 
future. The American people need both procedures and actions 
for the knowledge of how to implement those procedures that are 
established.
    Mr. Decker, you have repeatedly reported that we as a 
country lack a comprehensive assessment of the terrorist 
threats against us. The problem as you describe it is that, 
without this assessment, we haven't done a comparison and 
prioritization to allow us to plan intelligently. Is that a 
correct description of your findings?
    [The prepared statement of Hon. Wm. Lacy Clay follows:]
    [GRAPHIC] [TIFF OMITTED] T1782.043
    
    [GRAPHIC] [TIFF OMITTED] T1782.044
    
    Mr. Decker. Congressman Clay, that is correct.
    Mr. Clay. OK. And, as a result, there is a risk that our 
spending and preparation may be misaligned, is that right?
    Mr. Decker. I would hope that our investment returns the 
most interest for the Nation, and I'm not sure that's the case 
without that threat assessment.
    Mr. Shays. Your answer was really a yes, right?
    Mr. Decker. Yes.
    Mr. Clay. You know, let's talk about preparedness of the 
American public. I've heard that you can acquire a vaccine for 
anthrax. Should there be a run on getting that vaccine by the 
American public? Should we be concerned? And anyone on the 
panel can answer.
    Mr. Decker. I'd let my distinguished colleague, Dr. Alibek, 
comment on that.
    Mr. Clay. Should there be a run on the anthrax vaccine? 
Should the American public start----
    Mr. Alibek. Let's imagine the situation. We're able to 
manufacture enough doses of vaccine to vaccinate the entire 
population of the United States. Theoretically, it's possible, 
but it would be a significant problem, financial problem, 
logistical problem and so on and so forth, a medical problem as 
well.
    But, at the same time, let's imagine the situation, as I 
said before, there are many different agents and you vaccinate 
just against anthrax, it means somebody who has a desire to 
deploy biological weapons would use something else. Having 
people vaccinated against anthrax we would force these 
terrorist groups to develop and to deploy something else--
plague, tuberculosis, something else. When we talk about this, 
in my opinion it's not a perfect idea to vaccinate people 
because--keeping in mind that the number of agents is quite 
large. Any time you vaccinate against one agent you are in 
danger to be infected by another one.
    Mr. Clay. One more question, Mr. Chairman.
    Mr. Shays. You have no problem.
    Mr. Clay. We agreed that numerous technical problems are 
there with acquiring, producing and weaponizing biological 
agents.
    Mr. Decker, you stated in a past report, ``a leading expert 
told us that the whole process entails risk. For example, 
anthrax powders easily adhere to rubber gloves and pose a 
handling problem. Effectively disseminating the agent can pose 
technical challenges in that proper equipment and energy 
sources are needed. A less sophisticated product in 
dissemination method can cause illness or death.''
    As a result of these conclusions, would you say that 
terrorists or rogue states are more likely to seek out 
legitimate covers for their illegitimate activities such as 
pharmaceutical plants or the like?
    Mr. Decker. Sir, I have no direct evidence to be able to 
support that, but it would seem likely.
    Mr. Clay. Likely that they would use these plants as 
covers?
    Mr. Decker. I can only state that it would seem logical, 
but I have no factual documentation to support that.
    Mr. Clay. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank the gentleman.
    I haven't done my round yet. I'm going to do 5 minutes, 
then another 5, then we'll just go back to the other Members. 
I'd like to go fairly quickly if I can. If we have agreement, 
so then we not discuss those things, only where there might be 
disagreement.
    Mr. Decker has come forward with the whole concept that 
risk management is a systematic and analytical process to 
consider the likelihood that a threat will endanger an asset 
and so on. Then he broke it down into three: threat assessment, 
vulnerability assessment and critical assessment. The bottom 
line to a threat assessment is a threat assessment is used to 
evaluate the likelihood of a terrorist activity against a given 
asset or location. Then he basically said a vulnerability 
assessment is a process that identifies weaknesses in fiscal 
structures and so on. Then he said a criticality assessment is 
a process designed to systematically identify and evaluate 
important assets and infrastructures in terms of various 
factors such as the mission and so on.
    Do any of you disagree with this as being a framework with 
which the committee could work in dealing with management, risk 
management? Does this make sense to you, Dr. Alibek; to you, 
Mr. Parachini; to you, Dr. Post?
    Mr. Alibek. In general, it makes sense.
    Mr. Parachini. Just make sure I understand.
    Mr. Shays. He's giving us a way to process this. I want to 
know if you are comfortable with it or whether you would amend 
it.
    Mr. Parachini. An important part of this, if I understand 
what has been proposed, is to factor in motives into the 
vulnerability assessment. I think that's what Dr. Post has 
talked about. Too often, we just focus on the vulnerability or 
we just focus on the criticality, and we don't think what the 
capabilities put together with motives might produce. So that's 
an important point.
    Mr. Shays. OK, did you want to make a point Dr. Alibek?
    Mr. Alibek. In my opinion, that is correct. But when we 
discuss risk assessment, my position is still the same. We need 
to analyze the entire problem and to see what all possible ways 
to deploy and to develop biological weapons and what agents 
could be used. You know, I would use a broader definition for 
risk assessment.
    Mr. Shays. OK. Well, I'm going to come right back to you in 
a second.
    Dr. Post, your issue on motivation, anything else?
    Dr. Post. I would concur with what John Parachini has just 
said. And to me this is the weakest aspect of our capability of 
conducting a thorough risk assessment at this point, an 
insufficient ability to have the data to make a good evaluation 
of intentions.
    Mr. Shays. Let me expose my ignorance, Mr. Decker. I have 
basically said continually whenever I've had the opportunity 
that we've had three commissions that have come before us. They 
said, we don't have a proper assessment of the terrorist 
threat, we don't have a strategy to deal with a threat, and we 
aren't organized to maximize our resources to be effective to 
implement the strategy and succeed against the threat. Now, 
I've just made this blanket ``we don't have a proper assessment 
of a threat.'' You're breaking that first one down into parts, 
correct?
    Mr. Decker. Not exactly, sir. What I'm saying is, threat 
assessment by itself is not enough----
    Mr. Shays. OK.
    Mr. Decker [continuing]. To craft a cogent national 
strategy with effective actions.
    Mr. Shays. So we need more than threat assessment.
    Mr. Decker. Yes.
    Mr. Shays. So you have termed it risk management, and you 
have divided it into these three things--the threat assessment, 
vulnerability assessment and criticality assessment.
    You jumped in, Mr. Parachini, and said, motives go in 
there. Where would motives go in those three or is it a 
separate identity? Would it go under threat or would it go--it 
would go under threat, I guess.
    And you, Dr. Alibek, would take these three and add 
something else to it. You spoke too general for me for it to be 
helpful.
    Mr. Alibek. In my opinion, what needs to be said--not just 
threat assessment. Threat assessment, defense assessment is 
very important.
    Mr. Shays. What, our capability to respond?
    Mr. Alibek. Our capability to respond.
    Mr. Shays. Help me out, Mr. Decker. Where would that go in 
your line of thinking?
    Mr. Decker. The risk management approach is when you're 
looking at preparedness.
    Mr. Shays. OK.
    Mr. Decker. We're really talking primarily about the 
defense, the preparedness of the homeland.
    Mr. Shays. We're talking about the detection and prevention 
part of it.
    Mr. Alibek. Not just the detection and prevention. Of 
course, prevention is very, very important. When we talk about 
defense assessment or our preparedness, we need to keep in mind 
three major issues--detection, prevention and treatment.
    Mr. Shays. What was the last word?
    Mr. Alibek. Treatment.
    Mr. Shays. Treatment?
    Mr. Alibek. Treatment, yeah.
    Mr. Shays. How you treat it. OK. My staff understands. Then 
they make me feel ignorant here. That meant nothing to me. He 
said it five times--treatment, treatment, treatment--but it 
doesn't help. What do you mean?
    Mr. Alibek. The problem, one of the major things, 
biological weapons cause infectious diseases. In terms of 
protection----
    Mr. Shays. Do you mean response instead of treatment?
    Mr. Alibek. No, when we discuss response, we need to keep 
in mind three major directions in medical response. I would 
say--but not general response. Detection is a technical 
response, then protection is a medical response, and medical 
and technical response and treatment.
    Mr. Shays. Oh, I see. I misunderstood. I was thinking you 
meant detect the attack. You mean detect--so in that--I 
understand treatment in that basis. You're saying once there is 
the like--if you've detected that someone has a pathogen, that 
they are--they have been ill, you want to detect it, you want 
to protect them and treat them.
    Mr. Alibek. That's correct.
    Mr. Shays. OK. Now I understand. No wonder you thought I 
was an idiot here.
    I'm fascinated by your chart, Dr. Post. Because--let me 
just first get it here--it seems to me you're almost doing what 
the FBI has done. I'm not being really fair to you, so you'll 
get a chance to enlighten me. The FBI has said, there will be 
an attack, you know. It's like we needed to pay the FBI to tell 
us there will be an attack. We all know there is going to be an 
attack. We all know it could happen in the next 2 days. We all 
know it is serious, and we all know it could happen weeks from 
now.
    What you did on your scales--on your markings of the X and 
the star, you basically--you have the check as being less 
constrained and while still unlikely could rationalize such an 
act. So the check does not indicate likelihood of committing 
such an act but refers to motivation only. Well, that maybe 
answers my question.
    You're saying that these are not likely but that--help me 
out.
    Dr. Post. I'm glad you picked up on that. Because I think 
the check is somewhat misleading. This doesn't mean they are 
likely to do this. They are less psychologically and 
motivationally constrained. Having said that, they still need 
resource and technology. And if they are succeeding abundantly 
with conventional terrorism and don't have the handling risk, 
there is really very little incentive to move forward.
    The one major caveat in terms of that as I have studied 
Osama bin Laden, I've regularly been struck by--I think we can 
reliably predict we will be surprised by him. And he is 
remarkably innovative. Spends a great deal of time preparing, 
and then we have a terrorist spectacular. So I am by no means 
confident he would not move in this direction, not that he 
can't cause mass casualties with conventional terrorism but 
because he recognizes the terror that such an act would 
inflict.
    Mr. Shays. You want to say something, Mr. Parachini?
    Mr. Parachini. Let me contrast with Dr. Post on this point. 
I think there is a certain psychic thrill from the explosion or 
the dramatic event that a terrorist does not get in the delayed 
gratification of making people sick with disease. And if there 
was a way that bin Laden could think about to get that 
immediate response and there was that immediate sense of fear 
it might be of greater interest to him, but there are other 
alternatives that he turns to that he does achieve that.
    Mr. Shays. Well, a mass exodus of a city because people 
think there's a biological or chemical attack would give him 
quite a thrill. Because that would be pretty----
    Dr. Post. I do agree with that. I don't want to accuse you 
of practicing without a license here----
    Mr. Shays. You just did.
    Dr. Post [continuing]. But I do think indeed that part of 
what has been quite gratifying in his several interviews where 
he has actually suggested the questions about can bioterrorism 
has been that this is a way of inflicting terror and the notion 
of terrorizing the United States is a major source of 
satisfaction in his mission to be commander in chief of the 
Islamic world against the West.
    Mr. Parachini. I think if you look at all those interviews 
it's actually journalists who raise the question first and then 
he then responds to it.
    Dr. Post. That's actually not correct. That was my initial 
reaction. I've traced that back. The question----
    Mr. Shays. This is based on interviews you've had with 
different----
    Dr. Post. No, no. These are CNN, ABC, CBS interviews.
    Mr. Shays. Did I give you credit for something undeserved? 
My understanding is that you have had contact and interviewed a 
number of----
    Dr. Post. We just completed a project interviewing 35 
incarcerated Middle Eastern terrorists both in Palestinian and 
Israeli prisons and have a number of really quite dramatic 
quotes from them.
    I also served as expert witness in New York in the Federal 
trial of Osama bin Laden.
    Mr. Shays. So this is something you have done a lot of 
research on.
    Dr. Post. Yes. But on your point I agree with you. There is 
a satisfaction to the big bang.
    Having said that, it's quite clear to me that a major 
motivation for Osama bin Laden, as his last two statements 
indicated, is inflicting terror. And one gets a great deal--the 
mere act of doing that in and of itself is sufficient. But that 
leads me to believe that even a focal chem-bio attack which was 
then attributed to him would be powerfully magnifying of his 
stature.
    Mr. Parachini. Here is where Dr. Alibek makes a very 
helpful point about treatment and protective measures. It is in 
our capacity to control the impact of a biological attack which 
is fundamentally different from a chemical attack where you 
would have an immediate response. Bin Laden has consistently 
moved ahead with explosives. He has killed lots of people. The 
only people who--the only subnational entities that have used 
biological agents have been people who were obsessed with 
poisons.
    And Aum, which is the one we fear the most because they are 
like bin Laden, had lots of resources, failed in all their 
attempts, including the case of anthrax where what they used 
was veterinarian vaccine anthrax. It was not a virulent agent. 
So this is not as easy to do unless you're possessed to try and 
do it.
    Bin Laden is not possessed. He is an operator that we 
really have to deal with.
    Dr. Post. To add to that in one other point, several of the 
radical Islamic terrorists we spoke to indicated that the Koran 
proscribes the use of poison. And that was a disincentive. Most 
of the terrorists we interviewed said there was--they would do 
it if they were ordered to do it, but in fact give me a good 
Kalashnikov and there was no real consideration of this as a 
tactic among the radical Islamic terrorists that we had 
interviewed.
    Mr. Shays. Let me just say we're going to get back to this 
whole issue of treatment. Because I have had too many people--
and not right this minute, though, but because I want to give 
Mr. Gilman a chance and Mrs. Schakowsky to come back.
    But I just preface it by saying to you, so when I come to 
my next round, that when I saw the attack on September 11th I 
almost physically fell to my knees in the horror of it, like 
all of us did. The absolute horror of seeing the attack, to see 
the plane go on another, to see the building just implode, to 
hear the explosion at the Pentagon. But I think I fell more to 
my knees because I've had so many hearings where I've had 
people say to me, credible witnesses, that they have the 
capability--pleasant sound--we have the capability. And I 
thought they did, but the only restraint on them was they 
wouldn't want to have killed so many people. And that went--you 
know, that just totally--it just flipped on that moment. They 
were willing to annihilate 50,000 people.
    So I understand your point that these weapons of biological 
and chemical can be very precise so they can be--they can very 
much be pinpointed and not a weapon of mass destruction. But 
they can also be very indiscriminate.
    Dr. Post. This is true. And your point about the 
willingness to take mass casualties, one of the questions we 
asked in our interviews was was there any moral red line in 
terms of the extent of destruction, the extent of casualties; 
and for several of the groups, in fact, there are significant 
red lines that would be counterproductive for their cause.
    Let me just read: The more an attack hurts the enemy, the 
more important it is. That is the measure. The mass killings, 
especially the suicide bombings, were the biggest threat, and 
so most efforts were devoted to these. The extent of the damage 
and the number of casualties are of primary importance. In a 
jihad, there are no red lines.
    I find that a rather chilling comment.
    Mr. Shays. It is chilling.
    Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Shays. You're going to have 10 minutes.
    Mr. Gilman. I'm impressed by Dr. Alibek's focus of 
attention on the fact that we don't have a proper, appropriate 
coordination amongst our agencies and recommends a single 
specialized agency to take over. I note that we have 
organizations with some responsibility in our government. DOD, 
Defense, Health and Human Services, Centers for Disease 
Control, Department of Commerce, Department of Justice, FBI, 
CIA, NSA and FEMA, all have some responsibility. But there is 
no coordination, as we found in other areas that we're 
addressing.
    I think his recommendation that there should be an agency 
focused solely on biological terrorism, biological defense is a 
meritorious one, and I'd like to pursue it, but I'd like our 
other panelists to give us their views on Dr. Alibek's 
proposal. Mr. Decker.
    Mr. Decker. Congressman Gilman, this is the--I think Dr. 
Alibek's proposal is analogous to some of the comments from the 
Hart-Rudman Commission when they talk about consolidating 
certain functions under one organization to deal with border 
security issues. And the analogy would be obviously dealing 
with bioissues or----
    Mr. Gilman. Do you support the proposal?
    Mr. Decker. Sir, our agency has not done enough work in 
this area to determine is it better for the country to have an 
apparatus like this versus improving what we currently have.
    Mr. Gilman. Mr. Parachini.
    Mr. Parachini. This is sort of a novel concept. It's the 
sort of thing one expects from Dr. Alibek, sort of new 
thinking. You know, Governor Ridge could take this challenge 
on, among others.
    Mr. Gilman. Ridge is going to have a myriad of 
responsibilities.
    But Mr. Alibek is recommending that there be one 
specialized agency. What is your feeling? Yes or no.
    Mr. Parachini. It might be too narrow of a task. There are 
already a number of entities within the Pentagon that work on 
biological defense and critically DARPA does a lot of the 
research that Dr. Alibek is pointing to. So I would be 
reluctant to create yet another government agency to address 
this problem when I think already within the Pentagon there is 
a fairly robust agency.
    Mr. Gilman. Well, besides the Pentagon, all of those other 
agencies I just recited that have some part of it--HHS, DOC, 
DOJ, CIA, FBI and NSA, FEMA--it seems to me you need some 
centralized authority.
    Mr. Parachini. There is a natural inclination to find a 
central organization to coordinate. If we can accomplish 
integration without necessarily overlaying another layer of----
    Mr. Gilman. How do you get integration with all of these 
agencies out there?
    Mr. Parachini. Some of the interagency processes I think 
function very well. It's a matter of leadership to task them in 
the right way.
    Mr. Gilman. How do you feel, Mr. Post?
    Dr. Post. Having an intelligence background, having sat in 
on many national intelligence meetings, I would think that 
something would be lost in having too much of a homogenization 
of functions. There is a utility to having different 
organizations, and often it would be a greater clarity emerges 
from the clash of ideas.
    Mr. Gilman. So I take it the consensus is you have some 
reservations about pursuing it.
    Dr. Alibek.
    Mr. Alibek. If I may, to clarify this idea. You know, I am 
dealing with many agencies. I talk to many experts from 
different agencies and departments. The problem is this. I 
didn't mean to--just to have an agency just to conduct this 
work. It's a completely different idea. The idea, because as I 
said before the problem of biological weapon threat and 
biological weapons defense is so comprehensive, is so complex, 
it's absolutely impossible to have a huge number of agencies or 
departments responsible for different pieces of this huge 
puzzle.
    And when we start collecting all these pieces of puzzle in 
sort of picture what we see now, we see a lot of duplication, I 
mean, just many agencies doing the same work. Many government 
contractors, they do absolutely the same projects. We see a 
huge number of absolutely the same efforts run by different 
agencies and departments. And, you know, when you start 
collecting you realize we have a lot of work under different 
leadership, under different agencies, same work. While at the 
same time you can see a lot of holes in this puzzle of 
biological weapon threat analysis and defense.
    Mr. Gilman. Dr. Alibek, let me interrupt you. Dr. Alibek, 
you were the head of an agency in the Soviet Union that 
concentrated all of the efforts on biological and chemical 
warfare in your agency, is that correct?
    Mr. Alibek. Yes, that's absolutely correct.
    Mr. Shays. Would the gentleman suspend a second? Does it 
also include defense as well as offensive?
    Mr. Alibek. It includes both offensive and defensive 
issues. Just my personal experience, I don't want a 
supercentralization, I would say, but you know when you've got 
an agency, it's not a superagency which is capable to do 
everything and to remove people and so on and so forth--but 
when you've got an agency which is controlling all situation--
the entire situation in this field, when it knows what kind of 
agency involved in what kind of work, what subcontractors are 
doing what kind of work--now, for example, I can say again you 
mentioned specific agencies. I see, for example, there is an 
entity, a large government contractor running the project who 
develop so-called encyclopedia of biological weapons. We might 
be in a senseless work. We spent millions of dollars to do 
this. But at the same time there is another agency running 
another project with similar tasks.
    Mr. Gilman. A lot of overlap.
    Mr. Alibek. Not just overlap. A lot of senseless work. A 
lot of overlap. In this case, of course, when we say about $240 
or $300 million in this field, just if you start analyzing all 
this puzzle, you would see that 50 percent of this money is 
overlapping each other.
    Mr. Gilman. In your agency in the Soviet Union you had over 
30,000 workers all concentrating on biological and chemical 
warfare.
    Mr. Alibek. 30,000 workers, about 40 facilities 
concentrated there both biological weapons research, biological 
weapon development, biological weapon production, biological 
weapons defense.
    Mr. Gilman. How long did that agency exist in the Soviet 
Union?
    Mr. Alibek. It existed from 1973 to 1992. But now a similar 
agency exists under the Minister of Defense. It's similar 
agency but dealing with military issues of biological weapons 
and biological weapons defense. But it's a military agency.
    Mr. Gilman. Mr. Chairman, I hope that we can take another 
look at all of this since you were so forceful in your 
leadership on the fractionalization with other authorities with 
regard to terrorism and other aspects of chemical warfare.
    Let me ask the panelists, how do we force all of our 
agencies to share information? For example, you told us that 
there was a lack of sharing of intelligence between the FBI and 
the INS with regard to the hostage plane, that one of the 
hostage planes had taken place and had there been a sharing it 
could have been prevented. What are your thoughts? How do we 
improve the sharing of intelligence?
    Dr. Post. It seems to me, if I might note, that one of the 
better outcomes of this tragic event was cooperation on two 
levels which has been deficient in the past, both within the 
U.S. Government among agencies where there really is a 
significant press now to fully cooperate and share information 
and, at least as importantly, among the international 
community. One simply cannot assess this problem independently, 
either in any agency within the government or the United States 
alone without active sharing of information. And I think we are 
moving--there has been a kind of quantum leap as I have come to 
understand that cooperation.
    Mr. Gilman. Any mandates necessary domestically to do that? 
Should we have some mandate that there be forceful sharing of 
intelligence in----
    Dr. Post. There are, of course, problems with the different 
perspectives of the agencies which will always be present--
having an informant versus having a witness, is this a crime or 
is this a developing information. Understanding--I have been 
regularly been struck at interagency meetings between Defense, 
CIA and FBI that one has three different perspectives coming to 
bear. Terrorism is crime. Terrorism is political action. 
Terrorism is a low-intensity conflict.
    But the issue you're drawing attention to is absolutely 
crucial, and any efforts that can be brought to improve that 
cooperation I think would be welcome.
    Mr. Gilman. Dr. Alibek, if reports are correct that the 
Soviet Union used the biological weapon Glanders against the 
Mujahadin in 1982, what is the likelihood that terrorist groups 
from Afghanistan would use those kind of weapons against their 
adversaries?
    Mr. Alibek. Yes, you are absolutely right. There was 
credible information about the use of Glanders in 1992 against 
Mujahadins in some remote locations of Afghanistan. Glanders is 
a bacterial infection, very easy to grow, very easy to 
concentrate. If not treated, it has up to 30 percent mortality 
rate. Very stable in aerosol and has some persistent forms.
    In this case, just when we talk about difficulties, in my 
opinion, it's not difficult. Likelihood I would say is high.
    Mr. Gilman. Glanders is a--they tell me that is a bacteria 
that's highly lethal, is that correct?
    Mr. Alibek. It's not highly lethal. I would call it 
incapacitating agent. If it stayed well we would have about a 5 
percent mortality rate. Without treatment, it would increase up 
to 30 percent.
    Mr. Gilman. Has any----
    Mr. Shays. If the gentleman--it has gone about 12 or 13 
minutes.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Shays. Let me ask you, do you gentleman have until 
12:30? Does anybody have a problem until 12:30? I'm going to 
quickly vote while Ms. Schakowsky--I'm going to let her recess. 
I'm going to let her recess in the meantime.
    I hope to be back shortly after we recess. Then we'll get 
right--started again. Is that all right?
    Ms. Schakowsky [presiding]. I just have a couple of 
questions.
    It seems to me as if Dr. Alibek says one of the goals of 
biological weapons is to incite panic and fear. In some degree 
that has already been accomplished, that there is an incredible 
preoccupation right now with biological terrorism and 
emphasized, I think, with the three cases of anthrax right now 
in Florida. But it has also focused attention on the public 
health infrastructure. And I apologize for being here. I have 
looked through the testimony, and I know you were talking about 
threat, but if you were to prioritize where we are now putting 
our emphasis in response, both to prepare against and to be 
ready should something happen, where would you put the priority 
of bolstering our public health infrastructure, the capacity to 
recognize a biological attack, to have the necessary vaccines, 
to have the communication systems that we need?
    We have heard about weaknesses on every level. In 
comparison, then, to the threat, how important is it to act now 
to address the public health infrastructure? Anyone can answer.
    Mr. Parachini. The value of your question is it points to 
opportunities for what I would call dual-use spending. There 
are things that we can do that improve our capabilities and our 
public health system to, for example, detect emerging 
infectious diseases that occur naturally that are not 
intentional. And as a by-product of that, we also include our 
capability to--the low probability of an intentional use of a 
biological agent.
    Ms. Schakowsky. So in comparison, though, for example, in 
terms of airline safety, other transportation modes, where 
would you put----
    Mr. Parachini. Now you are broadening the spectrum beyond 
just within the biological area.
    Ms. Schakowsky. However you want to frame it. But how 
important is it?
    Mr. Parachini. Well, I would want to make investments that 
we get dual-use benefit across the board. Specialized 
investments just to address that terrorist problem or that 
terrorist problem today will be outdated tomorrow. And I am not 
fully in agreement that the only role of biological weapons is 
to inflict terror. And indeed, in 1984, in the United States, 
the use of biological agents was not to terrorize, but was 
specifically to incapacitate people.
    Ms. Schakowsky. Oh, no. I'm just saying if that is one of 
the goals that--in part that has been achieved already.
    Mr. Parachini. If that is one of the goals, we would have 
to have somebody say that is what they intended to do, or we 
would have to get a defector, or we would have to have somebody 
on a witness stand say that. And while we think that, we 
actually have not had a terrorist or a defector talk about 
biological weapons for terror. We have them talk about them as 
effective killing weapons or effective incapacitating weapons. 
But when we are talking about biological weapons for terror, we 
are really projecting our fear into what we think they're 
thinking. It's not clear to me that's the case.
    Mr. Alibek. If I may, when the Soviet Union was developing 
biological weapons, the Soviet Union developed its own doctrine 
and classification of biological weapons. Biological weapons 
have been divided into so-called strategic biological weapons, 
operational biological weapons, and the major idea was to kill 
as many as possible people. Biological weapons, according to 
the Soviet Union's military doctrine, would be used to kill 
people. The United States' old--very old program existed in the 
1950's and 1960's, intended to use incapacitating biological 
weapons.
    But what was important for the Soviet military strategists, 
everybody understood that in case of deploying biological 
weapons, one of the biggest problems would be in the country of 
deployment. It is huge panic, full distraction of any activity, 
vital military activity, because people actually, in addition 
to being infected, diseased and killed, they are afraid of 
biological weapons because they don't understand what it is. 
And it is one of the biggest problems.
    Another I think we are going to need to keep in mind, when 
we talk about biological weapons--and you know what worries me? 
When we discuss what kind of event we could see and whether or 
not we would see a sort of a small event like we saw several 
days ago in Florida, or it could result in some significant 
casualty number, the problem is this, and just what I would 
like to repeat once again: There is no single answer. We cannot 
say--we cannot insist saying biological weapons cannot produce 
a significant casualty effect. We cannot say at the same time--
we cannot say biological weapons are so effective that we could 
see a second doomsday, for example, and to produce sort of a 
doomsday scenario.
    In my opinion, what we need to do--that is why I said about 
our lack of understanding of the biological weapon threat. We 
need to understand it. Depending upon many different scenarios, 
agents, techniques, concentration of the agent, amount of the 
agent deployed and so on and so forth, we could see from dozens 
to hundreds of thousands of casualties.
    Ms. Schakowsky. I am going to have to go vote, and I am 
going to recess the committee right now.
    [Recess.]
    Mr. Shays [presiding]. Mr. Alibek thinks he has until 12:30 
to get back. Sometimes wars get started by miscommunication, 
but we can deal with it on our own. Calling this hearing to 
order.
    You all have been informed of a CNN story that an employee 
of NBC in New York has tested positive for anthrax, and that 
was Friday. The FBI and CDC are investigating. Now, then, they 
got the story wrong, because they said the anthrax is not the 
same respiratory anthrax that killed a Florida man. The 
employee tested positive for cutaneous anthrax. In other words, 
it is still the same anthrax, it is just by skin rather than by 
air. What is your reaction, Dr. Post, concern?
    Dr. Post. Each time we hear one of these events, it 
regularly heightens our own suspiciousness, and there is a kind 
of hyperactive community now. But I must say that it is 
troubling, and I would like to learn more about that, but 
especially when it hits a news agency, what could that mean?
    Mr. Shays. They make a mistake if they take on the news 
industry; don't you think?
    Dr. Post. There is no limit to whom they will take on.
    Mr. Shays. Why don't I go to you, Mr. Parachini. What I was 
going to say to you, as I have said, based on the 20 plus 
hearings we have had and the briefings we have had, I say the 
following: That it is not a question if there will be a 
chemical or biological attack, and it's a question of when, 
where and what magnitude. And I qualify the magnitude to be the 
less likely is the 100-year storm. Do you find that a statement 
you can agree with or disagree?
    Mr. Parachini. I agree with that. I think you are 
characterizing the scope and magnitude of the problem in the 
right way.
    Dr. Post. And motivationally, the issue of the 100-year 
storm for almost all terrorist groups would be highly 
counterproductive and have no positive incentive.
    Mr. Shays. Well, I used to think that before, but why now? 
I used to think that before, but not anymore. I mean, I don't 
see based on your comment about the red line----
    Dr. Post. I said for almost all terrorist groups, the one 
exception being the Islamist radical extremists who see 
themselves as trying to strike a mortal blow at our structure. 
Having said that, they are doing quite well, thank you very 
much, on using conventional terrorism. And on their own--and I 
don't have access to classified intelligence on this matter. 
The technological, scientific resource matters that are 
necessary really would require cooperation of a state 
provision, such as Iraq, and that to me is a very important 
area to be zeroing in on human intelligence on the connections 
between Iraq and the bin Laden group.
    Mr. Shays. Do you have any comment on that? Is that an 
uncomfortable statement to have made?
    Mr. Decker. I don't think it is uncomfortable. With what we 
just experienced, I think it is accurate.
    Mr. Shays. Dr. Post, you had said weapons of mass 
destruction is not a helpful term because they can be used not 
as weapons of mass destruction, or they wouldn't most likely--
--
    Dr. Post. The so-called weapons of mass destruction can be 
used in small attacks, and you can cause mass destruction with 
conventional terrorism. So I think it is semantically 
confusing.
    Mr. Shays. You don't see a distinction between a chemical, 
biological----
    Dr. Post. That is CBRN terrorism, and it does have its own 
terrorizing aspects, the so-called silent death, but it is not 
useful--because it conjures up the spectacle of the 
superterrorism, and, in fact, the much more likely use would be 
a small local attack.
    Mr. Shays. I was born in 1945, 8 years old by 1953. We then 
started to--we had the cold war--excuse me, the conventional 
World War I, II concept of confrontation gave way to the cold 
war, and there was a whole redefinition of how we responded. We 
ended up with--I am going to put a reward out for Dr. Alibek. 
And anybody gets him gets $10 from me if you get him in the 
next 5 minutes, and that is a promise you can bank on. But the 
cold war began. And we then--I am trying to think of, you know, 
is there some parallels to then and now. I had people tell me 
they thought cities would literally be blown up. I lived in a 
community in Fairfield County--Jason, you get $10.
    I want to get you on your way, but I just wanted to say and 
I am going to ask you, Dr. Alibek, this question. It can be a 
yes, if it is a yes or no. I just say that it is not a question 
if there is going to be a chemical or biological attack, but a 
question of not if, but when, where and of what magnitude, and 
the magnitude is the thing we talked about most likely to be 
small in nature, not large in nature. Is that an uncomfortable 
statement, a statement you would agree with or disagree?
    Mr. Alibek. I would answer this way now----
    Mr. Shays. I want a yes or no first. Would you agree or 
disagree. If you don't agree, tell me.
    Mr. Alibek. I agree.
    Mr. Shays. Now qualify.
    Mr. Alibek. Of course, we will be seeing newer and newer 
cases of anthrax or some other infections. And we know, for 
example, today's case in New York, new information has come in 
about a new case of anthrax. But we will be going from small 
cases, and probably later we will be seeing a bigger number of 
cases of various infections.
    Mr. Shays. And all of the three of you agree with Dr. Post 
except as not surprising there is no red line anymore, no red 
line meaning no limit to what they would be willing to do.
    Mr. Alibek. In my opinion, there is no red line.
    Mr. Shays. You are not surprised by it?
    Mr. Parachini. Well, I guess I would want to texture that a 
little more, because I think that the motivations, for example, 
are more than just an audience of one and it being God. It is 
not just religion. There is a patina of religion here, but it's 
other things. They talk about political things. And indeed, bin 
Laden in his recent statement has done that, as did Ramzi 
Yousef on the stand in New York.
    Here's the part where I think it differs a little bit from 
there being no red lines. They see themselves as cosmic 
warriors engaged in a great struggle, and in order to continue 
that struggle which gives them meaning, they have to stay 
alive, or some of them have to stay alive. And so they are 
willing to do a lot, but it is not that there is no red line, 
it's that they're willing to do what it is to fight in this 
cosmic struggle.
    Mr. Shays. In fact, the red line is way off in the 
distance.
    Mr. Parachini. I don't think they think about a red line at 
all. And so by putting a red line out there, we are imposing 
how we think that they'd crash on through it.
    Mr. Shays. In a sense you said yes, and it's an interesting 
way of qualifying. You said you wanted to add texture to it. 
I'm learning every day from you guys. I know my colleague Mr. 
Platts wants to ask a question.
    Mr. Platts. Thank you, Mr. Chairman. I just have two 
questions, and as a nonscientist kind of lay person on these 
issues trying to get a good understanding of the threats and 
the various aspects of these various biological weapons--the 
potential for it, earlier this week I sat in on a briefing with 
a doctor from John Hopkins and their civilian biodefense 
center, and when he talked about smallpox and the threats of 
that being used by terrorists and it spreading, one of the 
things he said was that a good nature--and the symptoms, I 
think, was 2 days of very intense fevers followed by the onset 
of the rash, and that his statement to us was that a person is 
not contagious until the onset of the rash. And, Dr. Alibek, in 
your testimony, you talk about it being contagious before any 
symptoms are visible. And I'd be interested if you could expand 
it.
    Mr. Alibek. You know, it's one of the biggest disagreements 
between Dr. Henderson and myself. He considers smallpox becomes 
contagious when we see the onset of this infection. 
Unfortunately, we have seen many cases when monkeys became 
infectious on the last day of incubation period, and it was 
absolutely the same observation from the scientists who visited 
India and some other countries when they dealt with smallpox in 
those countries. This infection becomes contagious the day 
before the onset of these symptoms.
    Mr. Platts. That is based on your studies in Russia?
    Mr. Alibek. Based on all observations and based on new 
study.
    Mr. Platts. Well, I think that is an important aspect 
because of----
    Mr. Alibek. This is the only contagious infection in which 
people become contagious before the onset of symptoms.
    Mr. Platts. OK. Thank you.
    From how to be able to address it, it emphasizes the 
importance of an immediate response as opposed to having a day 
or 2 or 3 days' kind of cushion to be able to respond.
    Mr. Alibek. You know, it is an interesting question, for 
example, when we analyze all scientific literature here in the 
United States regarding smallpox, you know what kind of 
information you find? You know, a very small general 
description of smallpox. Russia has studied smallpox for years 
from various aspects, especially keeping in mind that Russia, 
the Soviet Union, was involved in developing smallpox 
biological weapons for decades. In this case, a number of 
cases, a number of observations was much greater than here in 
the United States. And, you know, it is in many Russian 
sources. For example, if you analyze Russian sources, you can 
find this specific statement: Infection, this infection becomes 
contagious before the onset of symptoms.
    Mr. Platts. Thank you.
    Second question was for any of the panelist members who 
would like to address it is what other aspects of Dr. 
Henderson's testimony was the difficulty--and it has been 
reported in the press of it being very difficult to take a 
crop-dusting plane and adjust it to have such a fine mist that 
would be the serious threat. He contended in his statements to 
us that it is not true, that it would be very easy to kind of 
retrofit, to basically change some valves to make the crop-
dusting plane very much a means of disbursing the biological 
element in a very effective way, and I had been interested in 
any opinions.
    Dr. Post. It is my understanding that one needs to make a 
distinction between an urban area and tall buildings, and in 
order to get the adequate concentration down, it would be quite 
problematic.
    I do want to raise what my initial reaction was to this 
just to add a totally different element. I found it very 
interesting that these inquiries occurred in a rather 
indiscrete fashion, in fact just before the event when they 
were going to give their lives. My initial question was, was 
this done, in fact, to create terror, knowing----
    Mr. Platts. Psychological aspect of it?
    Dr. Post [continuing]. That they would be discovered, and 
was this part of a larger plan? I just raise this as an 
additional thought.
    Mr. Alibek. What is interesting, I agree with Dr. 
Henderson, when somebody says it is very difficult just to 
redevelop nozzles of crop dusters and just to have the right 
particle size, you know, in my opinion, it's incorrect. When we 
water the grass at our houses, there are some systems just to 
create mist. It is a very simple nozzle system. When we say it 
is very difficult to have biological agents in the right 
particle, it's a matter of just a specific nozzle device. And 
in this case, if this--usually crop dusters deploy 
biopesticides or pesticides--a regular particle size. Settling 
was in between 50, 100 microns. When we talk about biological 
weapons deployment, this particle size must be between 1 to 25 
microns. Some people say 1 to 5. It's incorrect. Up to 25 
microns could work. It would cause different manifestations of 
infections. But 25 microns work as well.
    And in this case, what I would like to say, one of the 
types of deployment in the Soviet Union for operation of 
biological weapons was to use medium-range bombers with spray 
tanks. In each spray tank, to capacity each, it had specially 
developed nozzles just to create this means. And, you know, 
crop dusters operate on the same principle.
    Mr. Platts. You are saying that you are agreeing with Dr. 
Henderson that it would be easily done?
    Mr. Alibek. He said it would be easy, and I agree it is not 
a technically unsolvable problem.
    Mr. Parachini. If I can just add, the Iraqis worked on this 
for a number of years and were not successful. We have to look 
into the future and hedge against that possibility, but let us 
keep in perspective the difficulty here.
    Mr. Alibek. We worked on this problem, and we used anthrax 
over the Virginia Islands using these medium-range bombers, and 
the effectiveness of this deployment was unbelievable. And in 
1968, deployment of tuleremia of--by American military showed 
with the right particle size was able to travel tens of miles 
and infect and kill monkeys 40, 50 miles downwind.
    Mr. Platts. Thank you, Mr. Chairman. And again, my thanks 
to all the panelists for their testimony.
    Mr. Shays. Dr. Decker, a housekeeping issue here. If we are 
trying to assess the threat assessment, part of that is do they 
have the capability, say, of delivering a chemical or 
biological agent. That would be part of the threat assessment, 
right?
    Mr. Decker. That's correct.
    Mr. Shays. Or a threat assessment, for instance, of 
radioactive material would be do they have radioactive 
material; or nuclear weapons, do they have a nuclear weapon?
    Mr. Decker. And other aspects of that, that's correct.
    Dr. Post. If I might add something worth noting in terms of 
threat assessment, one would like to know--and this is a human 
intelligence question--has this group been recruiting 
biochemists, or has it been recruiting inorganic chemists. Has 
it been trying to get into its cadre of specialists the kinds 
of scientists who could promote this. This would be one of the 
kinds of indicators one would look for that a group is making a 
transition from conventional terrorism to being really 
motivated to pursue bioterrorism.
    Mr. Shays. In a briefing we had yesterday, we had Eileen 
Pricer, who argues that we don't have the data we need because 
we don't take all the public data that is available and mix it 
with the security data. And just taking public data, using, you 
know, computer systems that are high-speed and able to digest, 
you know, literally floors' worth of material, she can take 
relationships that are seven times removed, seven units 
removed, and when she does that, she ends up with relationships 
to the bin Laden group where she sees the purchase of 
chemicals, the sending of students to universities. You 
wouldn't see it if you isolated it there, but if that unit is 
connected to that unit, which is connected to that unit, which 
is connected to that unit, you then see the relationship. So we 
don't know ultimately the authenticity of how she does it, but 
when she does it, she comes up with the kind of answer that you 
have just asked, which is a little unsettling.
    I just have a few areas of interest here, but I want to--my 
staff wants to make sure that I ask one question, and I am 
going to keep them on edge and wait to ask that question later. 
Makes them pay attention.
    Forty offices, 30,000 employees--30,000 employees would 
fill up a stadium. That is a lot of people.
    Mr. Alibek. Correct.
    Mr. Shays. They were all working on biological weapons and 
defensive ways to defend?
    Mr. Alibek. The great majority of them were working in two 
fields, biological weapons offensive issues and biological 
weapons defensive issues.
    Mr. Shays. And defensive, in your words, are what would 
happen----
    Mr. Alibek. To development of treatment, of vaccines, and 
just to protect against biological infectious diseases.
    Mr. Shays. In the process of doing your work, were there 
occasions where people became inflicted with a particular 
disease and died?
    Mr. Alibek. Yes. We had some cases.
    Mr. Shays. You had casualties.
    Mr. Alibek. But you know what we were able to do because 
there were two major systems to develop biological weapons. 
Minister of Defense had a great number of people who died 
because they started this program in the 1920's and 1930's.
    Mr. Shays. When your unit was established after the 
Department of Defense, were you the civilian side of this?
    Mr. Alibek. We were a completely new entity, specifically 
established to develop modern, sophisticated biological 
weapons.
    Mr. Shays. This is a matter of public record, and I should 
know it, so I don't want to spend a lot of time, but it's going 
to get me to a question. Is this operation still going on?
    Mr. Alibek. The Minister of Defense is still having 
facilities, but this system, Biopreparat, has been dismantled.
    Mr. Shays. You have 30,000 people give or take.
    Mr. Alibek. Many of them have left Biopreparat facilities. 
And where these people are, it is very difficult to say.
    Mr. Shays. We are not talking about 100 people, but 30,000.
    Mr. Alibek. But at least people with sophisticated 
knowledge, a number is about 7,000 to 9,000 people.
    Mr. Shays. That is a staggering number.
    Mr. Alibek. Nobody knows where these people are.
    Mr. Shays. Now, in terms of the biological agents, did you 
come across some delivery systems that would be very helpful to 
the terrorists, or did you hit a wall where you just simply 
couldn't deliver a biological agent effectively?
    Mr. Alibek. No. Everything was developed. There are three 
major delivery systems for deployment because it was a military 
program.
    Mr. Shays. I don't need to know them. I just want to know 
if you did them.
    Mr. Alibek. We were able to develop very effective, 
sophisticated deployment techniques and means for deployment.
    Mr. Shays. Now, some--obviously, if they are military, the 
tip of a missile, that's one thing, but were some of them more 
subtle so they would be a means that would be a tool that a 
terrorist could use?
    Mr. Alibek. Some of them, at least 50 percent of this 
technique, could be used by terrorists.
    Mr. Shays. Give me on a scale of 1 to 10, 10 being 
confident that terrorists have these weapons to 1 that they 
don't. Where would you put it, 10 being most likely that they 
had them, or at least the states--let's just go to the states, 
the Koreas, the Chinas, the Irans, the Iraqs, the Libyas.
    Mr. Alibek. Nine, ten.
    Mr. Shays. So, then, all I have to decide is if I think 
those countries have them, it's possible the terrorists have 
them. And I know what I think.
    Mr. Alibek. I'm talking about the countries. If you are 
talking about terrorist groups, it is difficult to say.
    Mr. Shays. We will all come to our conclusion.
    Dr. Post. On that question, might I note, though, the 
observation was made, terrorists are mobile and hard to trace 
where states are confined within their borders. The risk to a 
state of retaliation for it being discovered that it was 
providing these weapons to a terrorist group is certainly 
profound, and that will be a major--I am not saying it will 
stop providing them, but it certainly is a major disincentive 
for any state.
    Mr. Shays. The only problem with Afghanistan, for instance, 
if you believe the story yesterday, I mean, the Taliban and bin 
Laden are basically one and the same, if you accept that. This 
is--my major other area of questioning and I will get to the 
question the staff wants me to ask--well, let me do it now, the 
BWC, Biological Weapons Convention, did not stop the Soviet 
Union from developing biological weapons. The Soviets signed 
the BWC; is that correct?
    Mr. Alibek. That's correct. It was signed by the Soviet 
Union, but it didn't stop. It even expanded the Soviet Union's 
biological weapons program.
    Mr. Shays. And I don't believe, but I would be curious, do 
you think there is a way you can write a protocol to inspect 
all potential places where you would make a biological agent, 
or do you think that you could still have secret places that no 
one would ever know about?
    Mr. Alibek. In my opinion, it is impossible.
    Mr. Shays. Impossible?
    Mr. Alibek. Impossible, because these protocols would never 
be able to inspect all possible locations and all possible 
productionsites.
    Mr. Shays. And on a timely basis.
    Mr. Alibek. It is not just this issue. For example, the 
Soviet Union, as soon as that country started understanding 
that United States will be pressuring the Soviet Union 
severely, they started developing mobile installations for 
manufacturing and assembling biological weapons.
    Mr. Shays. Then let me just ask this question here. Do you 
think that the smallpox is still a Vector or--let me put it 
this way. This is what I have to sort out, and all of you can 
jump in. You basically had smallpox theoretically that was the 
WHO--that is the United States plus the Soviet Union--just 
those two and the WHO. But you have the United States 
theoretically and the Soviet Union have it, CDC and Vector. I 
don't know why other doctors who were dealing with the smallpox 
efforts to cure it, why they wouldn't have theoretically all 
abided by the request to destroy it. But my question to you is, 
are you totally and completely comfortable that smallpox is 
contained within Vector and nowhere else?
    Mr. Alibek. Absolutely not. I strongly believe that there 
are some countries who have secret stocks of this virus. And 
specifically we knew North Korea was experimenting with 
smallpox in late 1980's, early 1990's. And we knew that Iraq 
was experimenting with camelpox as a good surrogate for----
    Mr. Shays. You said Iraq?
    Mr. Alibek. Camelpox is a good surrogate to model a 
smallpox infection. This is just what we know for sure. But in 
my opinion, there could be some other countries still having 
smallpox stocks.
    Mr. Shays. Which gets me to this question--and all of you 
could jump in as well in terms of your perspective on it--if I 
am asked, you know, by someone from the press or constituents 
what can they do--in other words, I know what the government 
can do to deal with the threat and the likelihood of a 
biological attack. I think I know what my government can do. I 
want my government to obviously have the proper threat 
assessment, to know the likelihood of when, where and what 
magnitude, and if we can determine that. I would like them to 
know potentially what kind of biological agent would be used, 
you know. And I guess that would be based on percentages, Mr. 
Decker, I mean, this more likely than that, but--is that a yes?
    Mr. Decker. I think there would be some attempt to quantify 
which one would be more probable, but that is problematic in 
itself.
    Mr. Shays. So then my question is, the best answer I have 
is that I want my government to have the antibiotics to deal 
with this and potentially the vaccines where a vaccine would be 
helpful. Like with anthrax it would be helpful even after 
someone has contracted the disease, with the antibiotics. But 
what else can the government do? Is it just prevention, or can 
we deal with it when it happens?
    Mr. Alibek. My position again, vaccines--I don't believe 
vaccines are good protection against bioterrorism. What the 
government needs to do is to liberate all possible protection 
and treatment approaches and just to start paying much 
attention to treatment, to medical treatment and to emergency 
prophylaxes. Not much has been done in this field.
    Mr. Shays. More on treatment than a prophylactic.
    Mr. Alibek. More on treatment and emergency prophylaxes.
    Mr. Shays. Is that based on your belief there can't be 
immunity from a biological attack?
    Mr. Alibek. Not just my belief, our experimental data 
suggests there are some directions, very promising directions, 
could be liberated and could result in appropriate protective 
means and approaches against biological weapons.
    Mr. Shays. I misunderstand you. I say a prophylactic. Can 
you vaccinate someone for all the potential biological agents?
    Mr. Alibek. When we say prophylaxes, there are two types of 
prophylaxes: first, vaccine prophylaxes and, second, urgent 
prophylaxes. It means----
    Mr. Shays. When it happens----
    Mr. Alibek. You can use it either immediately before or 
after exposure. There are different means and approaches to do 
this. In this case, keeping in mind that the number of agents 
being used in biological weapons is big--I would say large--it 
is very, very difficult to imagine that vaccines would have any 
volume in this case.
    But there are many scientific approaches and many 
scientific developments already. For example, you can talk to 
DARPA, and they can tell you about the immunological approaches 
they develop. In my opinion, there is a very good direction 
funded by DARPA. But there is another problem. Since we started 
developing vaccines here in this country and in many other 
countries, we lost a huge number of scientists who understand 
infectious diseases, infectious diseases per se, and, I mean, 
we have got a huge number of microbiologists, but we have no 
many scientists who can deal with infectious disease.
    Mr. Shays. In the United States and Europe?
    Mr. Alibek. Unfortunately, yes. We need to revise this 
issue, and we need to develop a new level of scientists, 
virologists, bacteriologists and experts in infectious 
diseases.
    Mr. Shays. I would like to have counsel ask a question.
    Mr. Halloran. Just in anthrax cases, the island--or not an 
island, but the island of Anthrax in the Aral Sea in 
Kazakhstan, what can you tell us about the anthrax that's 
there? What is the likelihood that it's still virulent; that if 
a terrorist from Afghanistan wanted to walk up there with a 
scoop and grab some anthrax, what's the likelihood that it's 
still virulent and would be useful to a terrorist?
    Mr. Alibek. You know, this island in Aral Sea--Russian name 
of this island was Virginia Island. It was the Soviet Union 
bioweapon proving testing ground. It has been used to test 
different biological weapons including the plague, tuberculosis 
Glanders and anthrax. The entire island is contaminated, 
completely contaminated. You can dig in and isolate spores of 
anthrax. They are still virulent, and they could be used if 
there is a group having access to this island. It wouldn't be a 
big problem to isolate virulent strains of anthrax from that 
island.
    Mr. Halloran. The island is not guarded?
    Mr. Alibek. You can come and have just a very simple 
protection, spray-type suits; just a simple protection, 
including gloves, masks and just having simple equipment just 
to take samples in petri dishes and just to see on the surfaces 
of petri dishes and then separate colonies, and you've got 
enough material just for growing.
    Mr. Halloran. And the expertise required to identify a 
lethal strain, is that undergraduate, postgraduate?
    Mr. Alibek. Undergraduate. I would say this: A level 
enough--in many cases it is not a matter, for example, of 
graduating or master's degree knowledge. It is a matter of 
commitment and specific desire, specific knowledge. You have a 
basic training in biology, but if you commit to a personal 
group, you will be able to retrieve this information from many 
sources available in the world. In this case, for example, if 
you know how to grow microorganisms and you know how to 
identify--because it is a simple process--with how to identify 
a virulent strain. People think in many cases it is necessary 
to infect animals, but if they know that virulent strains have 
capsule and they know how to grow, how take a sample or prepare 
a slide and just staining the slide and see a capsule, you know 
it is a virulent strain.
    Mr. Shays. Let me close by asking, is there any question 
you would like to ask yourself that you wished I had asked or 
some other Member asked? Seriously. Is there a question we 
should have asked?
    Mr. Parachini. I would just urge the committee at some 
point in its deliberations to think through the link between 
the state programs and terrorists, because at the moment there 
is no open source information to show that evidence. And 
indeed, the numbers about the number of people involved in 
former state programs who may be around the world are in a fair 
amount of dispute. We've heard very large numbers here, but 
there are many other views about what the number is and where 
those people are, most of whom are in Western countries, most 
of whom are in the United States. So that gauge, the threat 
requires a little more discussion.
    Mr. Shays. You don't want me to assume that if Iraq has 
chemical agents, that the terrorists who have worked in Iraq 
have them?
    Mr. Parachini. That's right. That would be one thing, and 
also the former Soviet agents or former Soviet scientists, 
given the size of all the number of people that worked in the 
program, only a much smaller number actually had weapons, 
critical knowledge, and many of them have come here and have 
not gone to North Korea, Iraq or Iran. So getting the dimension 
of the potential threat is an important thing to run at.
    Mr. Shays. Seems to me we can't do it until we have that. I 
make the assumption, admittedly based on all the hearings that 
we have had, that it is so likely as to be almost absurd not to 
think they haven't gotten them, but your point is, I haven't 
seen the money. But we have people who have made it very clear 
to us that pathetically that resources from the former Soviet 
Union to various countries went for a song, that they didn't 
pay a lot of money for some of what they got. And one of the 
things that concerns me--one of the things that has concerned 
me has been--I am sorry. I lost my train of thought, and I just 
want to get this point--that you have various republics where 
you had nuclear programs in countries other than now Russia. Do 
I make the assumption that all the chemical programs were in 
the Russia Federation, or were some of them in now what are 
independent states, independent countries?
    Mr. Alibek. Now, when we talk about, not chemical, 
biological weapons program, apart--this program was located 
actually in three former Soviet Union republics. The major part 
was in Russia. A small part was in Kazakhstan, and the third 
part was in Uzbekistan.
    Mr. Shays. That shouldn't make me feel good, should it?
    Mr. Alibek. Yeah. But when we say how many people knew, 
know, and where these people are, what I would like to say I 
know because----
    Mr. Shays. Short answer.
    Mr. Alibek. I am having some Russian scientists working for 
me previously involved in Russian biological weapons program. 
They've got contacts with Russian scientists who visited Iran 
and Iraq and taught in Iran and Iraq, and they told these 
people who were in those countries, told that at least Iranian 
scientists had very sophisticated knowledge in molecular 
biology. They were there.
    Mr. Shays. I hear you loud and clear.
    Mr. Parachini. The link I am trying to make is between the 
terrorist group and the state.
    Mr. Shays. I think it is fair.
    Dr. Post. And just to add and echo this point, that is a 
huge, important intelligence target to be looking at that link, 
which we at this point in time scarcely have adequately 
covered. It is a human intelligence problem.
    Mr. Shays. Let me say to you I think this has been a 
wonderful panel, and I appreciate the moments when you were 
listening to others and then moments when you were the key 
player. If one of you wasn't here, this panel would not have 
been as helpful. It was the various contributions that you all 
made. And I hope our paths cross again. Very, very valuable 
information, and I appreciate it a lot. Thank you very much. 
This hearing is closed.
    [Whereupon, at 1 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
